<html>
<title> - WHAT ARE THE BARRIERS TO EFFECTIVE INTERGOVERNMENTAL EFFORTS TO STOP THE FLOW OF ILLEGAL DRUGS?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
 WHAT ARE THE BARRIERS TO EFFECTIVE INTERGOVERNMENTAL EFFORTS TO STOP 
                       THE FLOW OF ILLEGAL DRUGS?

=======================================================================

                             JOINT HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                and the

                 SUBCOMMITTEE ON CRIMINAL JUSTICE, DRUG
                       POLICY AND HUMAN RESOURCES

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 13, 2001

                               __________

                           Serial No. 107-32

                               __________

       Printed for the use of the Committee on Government Reform 









  Available via the World Wide Web: http://www.gpo.gov/congress/house 
                      http://www.house.gov/reform 

                        U.S. GOVERNMENT PRINTING OFFICE 
77-056                          WASHINGTON : 2002 
____________________________________________________________________________ 
For Sale by the Superintendent of Documents, U.S. Government Printing Office 
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001 













                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DAN MILLER, Florida                  MAJOR R. OWENS, New York
DOUG OSE, California                 PAUL E. KANJORSKI, Pennsylvania
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                 Earl Pierce, Professional Staff Member
                          Grant Newman, Clerk










   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               ------ ------
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                      Chris Donesa, Staff Director
                Nick Coleman, Professional Staff Member
                          Conn Carroll, Clerk
            Tony Heywood, Minority Professional Staff Member














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 13, 2001...................................     1
Statement of:
    Brown, Lorraine, Special Agent-in-Charge, Office of 
      Investigations, U.S. Customs Service; William T. Veal, 
      Chief Patrol Agent, San Diego Sector, U.S. Border Patrol, 
      U.S. Immigration and Naturalization Service; Errol Chavez, 
      Special Agent-in-Charge, San Diego Division, U.S. Drug 
      Enforcement Agency; Michael Schneewind, under sheriff, 
      Imperial County Representing the California Border Alliance 
      Group; Steve Staveley, director, division on law 
      enforcement, California State Attorney General's Office; 
      and Larry Moratto, commanding officer for investigations of 
      narcotics, city of San Diego Police Department.............     4
    Grier, Roosevelt ``Rosey'', chairman of the board, Impact 
      Urban America; Estean Hanson Lenyoun III, president and 
      chief executive officer, Impact Urban America; and Ken 
      Blanchard, chief spiritual officer, the Blanchard Companies    97
Letters, statements, etc., submitted for the record by:
    Brown, Lorraine, Special Agent-in-Charge, Office of 
      Investigations, U.S. Customs Service, prepared statement of     7
    Chavez, Errol, Special Agent-in-Charge, San Diego Division, 
      U.S. Drug Enforcement Agency, prepared statement of........    31
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, letter dated May 24, 2001.............    91
    Moratto, Larry, commanding officer for investigations of 
      narcotics, city of San Diego Police Department, prepared 
      statement of...............................................    65
    Schneewind, Michael, under sheriff, Imperial County 
      Representing the California Border Alliance Group, prepared 
      statement of...............................................    46
    Staveley, Steve, director, division on law enforcement, 
      California State Attorney General's Office, prepared 
      statement of...............................................    60
    Veal, William T., Chief Patrol Agent, San Diego Sector, U.S. 
      Border Patrol, U.S. Immigration and Naturalization Service, 
      prepared statement of......................................    16












 WHAT ARE THE BARRIERS TO EFFECTIVE INTERGOVERNMENTAL EFFORTS TO STOP 
                       THE FLOW OF ILLEGAL DRUGS?

                              ----------                              


                         FRIDAY, APRIL 13, 2001

        House of Representatives, Subcommittee on 
            Government Efficiency, Financial Management and 
            Intergovernmental Relations, joint with the 
            Subcommittee on Criminal Justice, Drug Policy 
            and Human Resources, Committee on Government 
            Reform,
                                                     San Diego, CA.
    The subcommittees met, pursuant to notice, at 11:08 a.m., 
in the 12th Floor Committee Room, City Administration Building, 
202 C Street, San Diego, CA, Hon. Stephen Horn (chairman of the 
Subcommittee on Government Efficiency, Financial Management and 
Intergovernmental Relations) presiding.
    Present: Representatives Horn and Souder.
    Staff present: J. Russell George, staff director and chief 
counsel; and Grant Newman, clerk.
    Mr Horn. A quorum being present, this joint hearing of the 
Committee on Government Reform, Subcommittee on Government 
Efficiency, Financial Management and Intergovernmental 
Relations which I chair and the Subcommittee on Criminal 
Justice, Drug Policy and Human Resources chaired by Mr. Souder 
of Indiana.
    Mr. Horn. This is the second in a series of field hearings 
being held by the Government Efficiency Subcommittee examining 
how the Federal Government works with State and local 
governments to serve the people of America. At today's hearing, 
we will explore the interaction between governmental agencies 
in California involved in the ``war against drugs'' and the 
impediments to greater success in their effort to stop illegal 
drugs.
    At every level of government, the effort to interdict drugs 
consumes vast amounts of resources. Inevitably, the actions of 
the Federal, State and local governments overlap and, at some 
times, they conflict with each other. Each level of government 
has its own laws and regulations which need to work in tandem.
    Victory in the ``war on drugs'' continues to elude the 
Nation. Billions of dollars have been expended by those on both 
the supply and demand side, and yet, no capitulation by those 
willing to do whatever it takes to traffic in illegal drugs. 
The President's budget for fiscal year 2002 notes that the 
Federal Government will spend more than $18 billion on drug 
control activities this year with State and local governments 
expected to exceed that amount in their anti-drug efforts this 
year alone.
    With moneys that could be used on other government programs 
being spent on a seemingly impossible problem, we are seeking 
the degree of cooperation which exists between the various 
levels of government. We are particularly interested in 
limiting the duplicative actions and the waste of government 
funds. From our first panel, the subcommittees will receive 
testimony from various Federal, State and local government 
witnesses. In the second panel, we will hear from two community 
leaders who have made a difference in the war on drugs, who 
will discuss the tools they have used to overcome obstacles in 
their successful efforts.
    I now recognize the co-chairman of today's hearing, the 
honorable gentleman from the State of Indiana, chairman and 
Representative Mark Souder, for an opening statement on behalf 
of his subcommittee.
    Mr. Souder. I thank Chairman Horn. It is a privilege to be 
here in California. This is actually I think my third 
congressional hearing here in California on the drug issue and 
my third time in San Diego. One time previous on the drug issue 
and Chairman Mica, when he chaired this subcommittee that I now 
chair, and once with Chairman Riggs on the Education Committee 
looking at Head Start and other education issues here in 
southern California.
    Our subcommittees are conducting this oversight field 
hearing as part of our need to understand fully the Nation's 
drug crisis and what the challenges are that face Federal, 
State and local authorities in the implementation of effective 
drug control efforts.
    Today, we will learn about the Federal, State and local 
efforts to respond to the drug crisis in southern California 
and along California's border with Mexico. The California 
border is one of the most vulnerable and challenging regions in 
America for our law enforcement officials.
    I am pleased to join Chairman Horn here today in support of 
efforts to stop the flow of drugs into the United States and to 
protect our communities from the ravages they cause. I 
recognize that he is a resident expert on the needs and 
concerns of citizens throughout this area of southern 
California and is an important force in fashioning Federal, 
State and local solutions. He has truly been a leader in 
Washington on the intergovernmental efforts.
    And I wish to thank all the witnesses for their presence 
here today and for their dedication to this issue of critical 
importance across America, not only you directly, but the 
people who work under you put their lives in danger and are at 
constant risk, and we cannot thank you enough for what you do 
for citizens throughout the entire Nation, because what you do 
here has an impact in far greater regions than just southern 
California.
    We are honored to have testifying before us today a number 
of Federal, regional and local officials who are engaged in 
responding to the drug crisis and its terrible consequences 
daily. These officials serve on the front line investigating, 
apprehending and prosecuting drug producers and traffickers and 
are in need of our support and assistance. Our subcommittees 
are particularly interested in how communities and regions are 
dealing with critical responsibilities and implementing 
successfully our national--not just Federal--drug control 
strategy. Most law enforcement and drug control activities are 
primarily State and local responsibilities. However, as a 
border region, southern California has special needs and 
concerns, such as trade, immigration and transit issues, which 
means that the Federal Government plays a unique role along the 
border.
    In Congress, we want to ensure that the Federal Government 
is doing everything possible to assist you, both in reducing 
the supply of drugs in communities as well as the demand for 
drugs. This region of California continues to be a primary 
transit point for illegal drugs entering the country and 
transitting across and through the State. In recent years, the 
flood of drugs including methamphetamine, marijuana and cocaine 
has only increased, placing more demands on resources than ever 
before. This demand will increase, not diminish, in the future.
    In response to this terrible drug crisis, this area of 
California has been designated by the White House Office of 
National Drug Control Policy as a high-intensity drug 
trafficking area. HIDTAs are defined as regions in the United 
States with serious drug trafficking problems that have a 
harmful impact on other areas of the country. The mission of 
HIDTAs is to ``enhance and coordinate'' America's drug control 
efforts among Federal, State and local agencies in order to 
eliminate and reduce drug trafficking, including the 
production, manufacture, transportation, distribution and 
chronic use of illegal drugs and money laundering and its 
harmful consequences in critical regions of the United States.
    The subcommittee I chair is responsible for authorizing, as 
well as overseeing, ONDCP and the HIDTA program. So the 
subcommittee I am on is a little different in the sense that it 
is not just the oversight, it is also the authorizing 
subcommittee.
    Today, we will learn more about the effectiveness of the 
HIDTA in combating drugs in this area. Designated as one of the 
HIDTAs in 1990, the Southwest border HIDTA region is a critical 
line of defense in efforts to reduce drug availability in the 
United States. ONDCP estimates that about 60 percent of the 
cocaine entering the United States passes through Mexico. 
Mexico is the No. 1 foreign producer and supplier of marijuana 
and methamphetamine to the United States as well. Mexican 
heroin dominates the market in the Western and Southwestern 
United States.
    I want to again express my appreciation for the continuing 
dedication and professionalism of our witnesses today and their 
willingness to share their ideas and needs with us. I can 
assure you that your representatives here today will do 
everything we can to assist you in protecting your loved ones 
and our loved ones and ridding your community of the deadly 
drugs.
    We all recognize that the drug crisis demands a full 
utilization of available resources and close cooperation in a 
comprehensive regional approach. After all, that is what HIDTAs 
are designed to do, and it is our job in Congress to monitor 
and ensure their success. If obstacles are identified, then we 
must move to decisively overcome them. San Diego, southern 
California and this Nation cannot afford to wait--the drug 
crisis demands promising approaches and decisive action and the 
time to act is now. And the truth is, unless we can control 
what is coming into this country, our efforts to expand our 
prevention and treatment programs will not work. As we are 
working in the Drug Free Schools program, probably the first 
week we come back in session in the Education Committee, we 
know that we cannot defeat it at the school level where the 
prices go down and the purity goes up. We are depending on the 
Border Patrol along the Southwest border to work.
    So I wish to thank all the witnesses again for appearing 
before us today and I look forward to your testimony.
    Mr. Horn. I thank the gentleman from Indiana. Both our 
committees, the Subcommittee on Criminal Justice, Drug Policy 
and Human Resources and mine on Government Efficiency, 
Financial Management and Intergovernmental Relations--they are 
both investigating committees, so we swear in all witnesses.
    And if you will rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that all five witnesses have 
affirmed the oath, and we will start in the order that has been 
put on the agenda. Panel one will begin with Lori Brown. Ms. 
Brown is Special Agent-in-Charge, Office of Investigations, 
U.S. Customs Service. Please proceed.
    We would like you to sort of summarize on some, but we have 
the time today. If you want to go over 5 minutes, it is not 
going to offend me or Mark. But we will cut it off for sure at 
10 minutes, but I think we need to get your testimony on the 
record. So Ms. Brown, you start.

 STATEMENTS OF LORRAINE BROWN, SPECIAL AGENT-IN-CHARGE, OFFICE 
OF INVESTIGATIONS, U.S. CUSTOMS SERVICE; WILLIAM T. VEAL, CHIEF 
   PATROL AGENT, SAN DIEGO SECTOR, U.S. BORDER PATROL, U.S. 
 IMMIGRATION AND NATURALIZATION SERVICE; ERROL CHAVEZ, SPECIAL 
  AGENT-IN-CHARGE, SAN DIEGO DIVISION, U.S. DRUG ENFORCEMENT 
  AGENCY; MICHAEL SCHNEEWIND, UNDER SHERIFF, IMPERIAL COUNTY 
   REPRESENTING THE CALIFORNIA BORDER ALLIANCE GROUP; STEVE 
  STAVELEY, DIRECTOR, DIVISION ON LAW ENFORCEMENT, CALIFORNIA 
STATE ATTORNEY GENERAL'S OFFICE; AND LARRY MORATTO, COMMANDING 
  OFFICER FOR INVESTIGATIONS OF NARCOTICS, CITY OF SAN DIEGO 
                       POLICE DEPARTMENT

    Ms. Brown. Thank you, Chairman Horn, Chairman Souder, I am 
pleased to appear before you to discuss the U.S. Custom 
Service's work with State and local governments in California 
to interdict the flow of drugs into this State.
    Much of the narcotics seized by Federal, State and local 
law enforcement officers in California enters the United States 
from Mexico. Along the California border with Mexico, there are 
six ports of entry. A total of 53 percent of the Southwest 
border seizures were made at these California ports of entry in 
fiscal year 2000. To help address this threat, the San Diego 
area was designated as a high-intensity drug trafficking area 
[HIDTA]. The HIDTAs promote cooperation and intelligence 
sharing among Federal, State and local agencies involved in the 
investigation of narcotics smuggling and trafficking. San Diego 
Customs is a member of the San Diego HIDTA known as the 
California Border Alliance Group.
    The Customs office investigations participates with State 
and local officers in five of the ten HIDTA initiatives. The 
five initiatives include an intelligence group, an Imperial 
Valley group, a Marine task force, a task force at San Ysidro 
and a financial task force. All State and local officers in 
these five initiatives have been cross designated as Customs 
officers.
    In fiscal year 2000, these five HIDTA initiatives were 
responsible for seizures of almost 9,000 pounds, or 4\1/2\ tons 
of cocaine, 167 tons of marijuana, 170 pounds of heroin and 672 
pounds of methamphetamine.
    One of the other San Diego HIDTA initiatives is the 
prosecutor's initiative. State prosecutors are funded under 
this initiative to handle the prosecutions for Federal agents 
in State court. Approximately 50 percent of the federally 
initiated cases in San Diego do not meet the Federal 
prosecution guidelines. The San Diego Customs agents work with 
the HIDTA State prosecutors to prepare these cases for 
prosecution in State court.
    Additionally, the San Diego HIDTA intelligence initiative 
distributes reports of Customs arrests and seizures to police 
departments across the country, to notify these departments 
when individuals residing in their areas are arrested.
    Despite these great successes in the San Diego border area, 
significant amounts of cocaine, marijuana, heroin and 
methamphetamine move into the Los Angeles area from the U.S./
Mexican border areas, a distance of approximately 100 miles. 
Mexican drug trafficking organizations dominate the drug 
trafficking trade in the L.A. area. In response to this threat, 
Customs and the other Federal agents in the four-county area 
work closely with the State and local agencies in the Los 
Angeles HIDTA, which encompasses the counties of Los Angeles, 
Orange, Riverside and San Bernandino.
    There are five enforcement initiatives in the L.A. HIDTA, 
including the southern California drug task force, which is a 
collocated joint operation with Federal agencies from the 
Department of Treasury and the Department of Justice and 15 
State and local departments. The four other enforcement 
initiatives are comprised primarily of State and local 
officers. These teams work with each other and the Federal 
agencies in conducting narcotics investigations. In fiscal year 
2000, these HIDTA drug investigation teams seized 3.3 tons of 
cocaine, 38 pounds of heroin, approximately 12.2 tons of 
marijuana and over 4\1/2\ tons of methamphetamine and $19 
million in currency and other assets.
    The L.A. HIDTA initiatives also arrested approximately 
1,000 narcotics traffickers. The Los Angeles HIDTA won the 
national HIDTA of the year award in both 1999 and 2000.
    In addition to participating in this formal task force, 
Customs works very closely with various State and local 
departments in the continuing investigation of narcotics 
organizations identified through seizures here at the border.
    Customs agents in Los Angeles regularly work with San Diego 
Customs agents on controlled deliveries of narcotics seized at 
the border. The Los Angeles HIDTA also conducts controlled 
deliveries of narcotics seized in L.A. from arriving air 
passengers or from in-bound mail and parcels. In controlled 
delivery, law enforcement officers deliver the narcotics to the 
intended recipient in order to reach the next level of the 
smuggling organization. State and local officers participated 
in over 75 percent of these continuing investigations and 
controlled deliveries, assisting with surveillance and 
providing language, technical and analytical expertise. These 
controlled deliveries resulted in additional seizures and 
arrests and allowed law enforcement to make an impact on higher 
levels of the smuggling organizations.
    To combat the illicit movement of drug proceeds to Mexico 
and other countries, Customs routinely develops and employed 
interdiction initiatives targeting identified currency 
smuggling trends. State and local officers have contributed 
significantly to these outbound currency initiatives. In the 
Los Angeles office, local law enforcement officers have 
received Customs training and are beneficially cross-designated 
as Customs officers. This authorizes them to conduct Customs 
outbound searches when necessary and appropriate. These cross-
designated officers are assigned full time to Customs groups 
investigating money laundering and smuggling violations.
    I believe that all of the above examples show the high 
degree of cooperation between the Federal agencies and State 
and local departments in southern California. The State and 
local departments provide additional expertise, language skills 
and surveillance resources to the Federal agencies. In turn, 
the Federal agencies offer additional authority and 
jurisdiction to the local officers. Law enforcement benefits by 
a coordinated effort at attacking all levels of the drug 
smuggling organization.
    This concludes my oral testimony. I will be happy to answer 
any questions that you have.
    Mr. Horn. Well, thank you very much. And I might tell all 
members of the panel that your full statement is put in the 
minute we introduce you and then it is up to you whether you 
want to read the beginning or the end or summarize it. As I 
say, if we can do it in 5 minutes, just so you do not go over 
10
    We are now with William Veal, the Chief Patrol Agent, San 
Diego Border Patrol Sector, Immigration and Naturalization 
Service, Department of Justice. Glad to have you here.
    [The prepared statement of Ms. Brown follows:]
    [GRAPHIC] [TIFF OMITTED] T7056.001
    
    [GRAPHIC] [TIFF OMITTED] T7056.002
    
    [GRAPHIC] [TIFF OMITTED] T7056.003
    
    [GRAPHIC] [TIFF OMITTED] T7056.004
    
    [GRAPHIC] [TIFF OMITTED] T7056.005
    
    [GRAPHIC] [TIFF OMITTED] T7056.006
    
    Mr. Veal. My pleasure, sir. Chairman Horn, Chairman Souder, 
thank you for the privilege of being able to appear before this 
body.
    I would like to take you back to just 10 short years ago on 
the Southwest border of the United States. In effect, we had 
created a no-man's land between the United States and Mexico. 
Chaos reigned on our border. Organized elements were freely 
able to move people and contraband from Mexico into the United 
States. In effect, we were overwhelmed.
    The Congress--and I thank you and I thank your colleagues--
over the period of the last 7 years, has supplied the resources 
to the Immigration and Naturalization Service to bring the 
Border Patrol to a staffing level to where we have turned the 
corner--and I truly believe we have turned the corner on 
gaining control of our border.
    I hope you will have a chance to see for yourselves that a 
border that 10 years ago where the United States maintained no 
right of way on the border, no Federal right of way, the United 
States maintained no border fencing, no border lighting, there 
was no infrastructure in place. That situation has dramatically 
changed. And now we do have control of the border in the San 
Diego sector.
    The Southwest border initiative was begun in about 1994. It 
began in El Paso, TX with Operation Hold the Line and then it 
spread here to San Diego with Operation Gatekeeper. And again, 
I ask you to be mindful of the fact that for 20 years, the 
border was porous and for a long time, we wrestled with the 
idea of, well, ``How do we control this? Do we put money into 
stopping people, do we put money into stopping contraband?'' 
And frankly, that was a failed dichotomy. You have border 
security or you do not have border security. You cannot have a 
border that is permeable for people and yet not permeable for 
drugs, or vice versa. I think we have come to grips with that 
now and realize that it is clearly in our national interest to 
have a border that is secure from illegal entry, whether it be 
from people or contraband.
    The Border Patrol developed a strategy to apply the 
resources that the Congress dedicated to us and I think you 
will take great pride in seeing the results of that. Before 
that, people had said, ``Do not bother funding these 
initiatives. It does not matter what you do on the border, you 
cannot control it. In a free society, you are not going to be 
able to do that.'' I think that has been proven wrong.
    Some of the questions that you are asking, I would commend 
to you the initiatives of the HIDTA program. I think that is a 
highly significant and successful endeavor. I was here in San 
Diego before we had HIDTA, we had a very fractured approach 
amongst the Federal, State and local initiatives. The HIDTA 
very much brought us all together. We have now a great many 
joint initiatives that never happened before. They happen now 
and continue to benefit our country.
    For example, here in San Diego, we have a maritime 
initiative. It is the Border Patrol, the Customs Service, the 
U.S. Coast Guard. The Coast Guard, by the way is just a 
tremendous partner in maintaining control of our national 
borders. They interface very well with us. Some of the recent 
cutbacks, some of the funding shortfalls that the Coast Guard 
is currently experiencing does have collateral impacts on us.
    This maritime task force again looks to--the Coast Guard 
which provides a long range. They have very long sea legs and 
are able to reach out. The allied agencies, the Harbor Police, 
the Customs Service and the Border Patrol maintain a harbor 
patrol that is now expanded to a 7 by 24 operation. We never 
had the capability to do those things before. And the HIDTA has 
been a significant resource for us in being able to resource 
that initiative.
    You may be familiar with the testimony of Judge Ferguson. 
Judge Ferguson testified about 2 weeks ago. Judge Ferguson is a 
District Court Judge for the Western District of Texas. He 
testified before the Judiciary Subcommittee on Crime and he 
noted the fact that the Southwest border initiative that the 
Border Patrol has put in place over the last 7 years has 
dramatically changed the face of what the Federal courts are 
seeing. We have--I am happy to say, if the Judge is not happy 
to hear--we have dramatically increased the caseload on the 
Federal docket. Judge Ferguson's testimony was to the effect 
that increase also needs to be addressed. We have significantly 
increased the caseload of the judiciary along the Southwest 
border and now the judiciary needs to be resourced to be able 
to deal with that caseload.
    An example of one of the collateral effects of that is 
that--you may be familiar with the Civil Asset Forfeiture 
Reform Act that was recently passed. It was designed, I 
believe, to correct some of the inequities that existed in the 
Federal asset forfeiture process. I think we may have seen some 
effects of that in that formerly when we intercepted persons 
smuggling, either aliens or drugs, in a vehicle, we were 
readily able to forfeit those vehicles because they were used 
in smuggling operations. With CAFRA, we do not have the option 
of administratively forfeiting those vehicles. We are required 
now to look to the courts to do the forfeiture. Well, as I 
stated, we have already got an overburden judiciary and these 
cases are just not going to make their way into the system.
    When you entered the building this morning, you may have 
noticed in the lobby that there is a big sign up, they are 
celebrating their volunteers. There is a great civic-mindedness 
in our country and we routinely have folks who come to the 
Border Patrol and say they would like to volunteer their 
services to us. They would like to assist us in doing some 
things, and in effect, to free Border Patrol agents up to do 
core law enforcement work instead of some of the ancillary 
tasks that they have been given. Our general counsel tell us, 
because of the Anti-Augmentation Act, that we are unable to do 
that, and I frankly think that the U.S. Government is missing 
out on a great opportunity to bring citizens in to help 
agencies do things that maybe we do not need to have someone on 
the payroll to do. Many police departments have volunteers, 
many police departments have reserve officers and I think that 
if we had the ability to do these things--again, it would 
increase, would enhance the efficiency of the U.S. Government.
    Again, I thank you for the privilege of being here to meet 
with you today and I stand ready to answer any questions you 
may have.
    Mr. Horn. Thank you. That is very exciting testimony.
    Our next presenter is Errol Chavez, Special Agent-in-
Charge, San Diego Division of the U.S. Drug Enforcement Agency. 
Glad to have you here.
    [The prepared statement of Mr. Veal follows:]
    [GRAPHIC] [TIFF OMITTED] T7056.007
    
    [GRAPHIC] [TIFF OMITTED] T7056.008
    
    [GRAPHIC] [TIFF OMITTED] T7056.009
    
    [GRAPHIC] [TIFF OMITTED] T7056.010
    
    [GRAPHIC] [TIFF OMITTED] T7056.011
    
    [GRAPHIC] [TIFF OMITTED] T7056.012
    
    [GRAPHIC] [TIFF OMITTED] T7056.013
    
    [GRAPHIC] [TIFF OMITTED] T7056.014
    
    [GRAPHIC] [TIFF OMITTED] T7056.015
    
    [GRAPHIC] [TIFF OMITTED] T7056.016
    
    [GRAPHIC] [TIFF OMITTED] T7056.017
    
    [GRAPHIC] [TIFF OMITTED] T7056.018
    
    Mr. Chavez. Good morning, Chairman Horn, Chairman Souder 
and other distinguished members of this subcommittee. Thank you 
for the opportunity to address this subcommittee on our efforts 
to interdict drugs crossing the U.S./Mexican border into 
California and the coordination of these efforts with State and 
local law enforcement counterparts.
    Let me begin by saying that the 140-mile border between 
California and Mexico and the Southwest border in general, is 
considered an extremely porous part of our Nation's periphery. 
The growing volume of commercial and pedestrian traffic that 
plays an integral role in California's economy, creates an 
infinite number of opportunities for drug trafficking 
organizations to smuggle illegal drugs. These drugs are hidden 
in all modes of conveyances, including the compartments of 
cars, trucks and the bodies and baggage of pedestrians. 
Smuggling methods range from extremely sophisticated 
concealment methods to simply tossing a drug-laden package over 
the border which can be whisked away by foot or by vehicle. 
Since California is also bordered by the Pacific Ocean, drug 
trafficking organizations can even utilize boats and ships to 
position their stash of drugs close to the border for eventual 
transfer to the United States. It is worth noting that since 
August 1998, the U.S. Coast Guard has seized approximately 102 
tons of cocaine in the Eastern Pacific.
    Over the past few years, Mexico-based trafficking 
organizations have succeeded in establishing themselves as the 
preeminent poly drug traffickers of the world. They have also 
entered into a symbiotic relationship with Colombian-based 
traffickers that has resulted in the Mexican-based 
organizations playing an increased role in the cocaine trade. 
Mexican-based trafficking organizations in cities such as San 
Diego, Los Angeles and San Francisco now control the 
distribution of multi-ton quantities of cocaine once dominated 
by Colombian organizations. It is now estimated that 
approximately 65 percent of all cocaine smuggled into the 
United States crosses the U.S./Mexican border.
    In the San Diego area, a significant number of cocaine 
seizures made by the U.S. Customs and the U.S. Border Patrol 
indicate that drug traffickers continue to utilize the shotgun 
approach attempting to minimize successful interdiction efforts 
by sending smaller loads.
    Cross-border cocaine shipments generally are smuggled 
across the U.S./Mexican border in concealed compartments with 
cars, truck, recreational vehicles or commingled with 
legitimate tractor-trailer cargo. The border has also become a 
significant transit point, not only to the U.S. heroin markets 
West of the Mississippi, but increasingly to the primary 
markets in the Northeast. Recent seizures in 2000 and 2001 
reflect that Mexican black tar heroin is increasingly being 
smuggled into the United States in larger quantities than in 
the past. In June 2000, a multi-jurisdictional investigation 
was completed with the arrest of 249 targets, the seizure of 64 
pounds of heroin, 10 weapons and over $300,000 in currency.
    Given the expanse of the California border shared with 
Mexico, it is clear that no single agency can completely filter 
illegal drugs from the massive quantities of legitimate 
commercial cargo that flows across this border each day. Inter-
agency cooperation with our valuable counterparts from the U.S. 
Customs, U.S. Border Patrol, Bureau of Alcohol, Tobacco and 
Firearms and the Federal Bureau of Investigation, as well as 
coordinated efforts with State, local and foreign law 
enforcement authorities provide the only logical response to 
the magnitude of this problem.
    DEA's strategic approach to targeting major drug 
trafficking organizations is to initiate and pursue high 
impact, intelligence-driven multi-agency, multi-jurisdictional 
investigations which rely heavily on State and local 
cooperation. This attitude and strategy has resulted in 
noteworthy successes in targeting and dismantling major 
trafficking organizations operating in the California/Mexico 
area.
    The marked resurgence of methamphetamine purity and abuse 
in the 1990's can also be attributed to Mexican traffickers who 
exploited their ready access to precursor chemicals to seize a 
portion of the U.S. methamphetamine market. Through a 
comprehensive international chemical control effort and 
domestic precursor chemical control program, we have only 
recently observed a dramatic decline in the purity of 
methamphetamine sold in our country. In San Diego County, the 
methamphetamine strike force, established over 5 years ago, is 
a collaborative effort between Federal, State and local law 
enforcement, drug prevention, education and treatment agencies, 
has resulted in a significant decrease in the use and abuse of 
methamphetamine in southern California. This effort is a unique 
model and has been duplicated in several other cities in the 
United States to combat the methamphetamine problems.
    The Southwest border initiative, in particular, has 
developed into a comprehensive approach to meet this challenge 
and has been designated as an enforcement priority of the San 
Diego field division. An investigation strategy, this 
initiative relies heavily on a multi-agency approach with a 
broad-based assault on drug trafficking along the border. It 
involves the participation of Federal, State and local law 
enforcement with resources being directed against the most 
significant poly drug transportation group operating in this 
area.
    DEA San Diego has particularly focused on the Arellano-
Felix organization, one of the most violent poly drug 
trafficking groups operating along the Southwest border. The 
Southwest border initiative, through its multi-agency strategy, 
has achieved significant progress against this organization, 
using investigative techniques such as electronic surveillance, 
undercover operations and informants. This cooperative effort 
has led to the identification of a number of key lieutenants in 
the San Diego area. DEA San Diego is extremely fortunate to 
have a long-established and highly productive partnership with 
the various Federal, State and local law enforcement agencies 
present in San Diego.
    The San Diego Field Division has several task force groups 
comprised of personnel from 18 various Federal, State and local 
law enforcement agencies. Cooperation and coordination among 
all participating agencies is excellent and is exemplified in 
the narcotics task force, NTF. This DEA-funded task force is 
now in its 27th year and targets local impact violent crime 
groups and mid-level distributors. The goal of the NTF is to 
provide San Diego County with coverage of narcotic enforcement 
expertise to promote inter-agency cooperations. All task force 
officers are deputized as Federal agents, giving them Federal 
law enforcement authority. This provides the investigators with 
every opportunity to take the investigation to its highest 
level.
    The Narcotic Information Network [NIN] is a high-intensity 
drug trafficking HIDTA initiative and another example of 
successful cooperation of law enforcement. This multi-agency 
initiative was established to enhance officers' safety 
throughout San Diego and Imperial Counties, reduce duplication 
of efforts among agencies participating in the NIN and promote 
the exchange of information. The goals of this initiative are 
to coordinate agency efforts and provide intelligence on common 
targets.
    Other examples of excellent cooperation are the San Diego 
Financial Task Force, Marine Task Force, the Border Corruption 
Task Force, the San Diego Violent Crime Task Force and the 
California Border Alliance Group, and the Law Enforcement 
Coordination Center in Imperial Valley.
    In conclusion, as this Nation's lead drug enforcement 
agency, the DEA is committed to a strategy that incorporates 
the coordination and cooperation of all drug enforcement 
efforts on all levels. It is only through this concerted effort 
that we can hope to minimize the scourge of illicit drugs on 
our society.
    Thank you again for the opportunity to address your 
subcommittee on this important topic. I would be happy to 
answer any questions you may have at the appropriate time.
    Mr. Horn. Well, thank you very much. That is a helpful 
presentation.
    Our next witness gets right down to the grassroots and that 
is Michael Schneewind, who is the Undersheriff, the second in 
command, in Imperial County, representing the California Border 
Alliance Group. When you live in Imperial County, you are right 
on the border.
    Thank you for coming.
    [The prepared statement of Mr. Chavez follows:]
    [GRAPHIC] [TIFF OMITTED] T7056.019
    
    [GRAPHIC] [TIFF OMITTED] T7056.020
    
    [GRAPHIC] [TIFF OMITTED] T7056.021
    
    [GRAPHIC] [TIFF OMITTED] T7056.022
    
    [GRAPHIC] [TIFF OMITTED] T7056.023
    
    [GRAPHIC] [TIFF OMITTED] T7056.024
    
    [GRAPHIC] [TIFF OMITTED] T7056.025
    
    [GRAPHIC] [TIFF OMITTED] T7056.026
    
    [GRAPHIC] [TIFF OMITTED] T7056.027
    
    [GRAPHIC] [TIFF OMITTED] T7056.028
    
    [GRAPHIC] [TIFF OMITTED] T7056.029
    
    [GRAPHIC] [TIFF OMITTED] T7056.030
    
    Mr. Schneewind. Good morning. Mr. Chairman, members of the 
subcommittee, I am Mike Schneewind, I am the undersheriff of 
Imperial County, speaking on behalf of Sheriff Harold Carter, 
who is the vice chairman of the California Border Alliance 
Group, here in San Diego.
    I am pleased to testify concerning our effort to address 
Federal, State and local cooperation against drug problems in 
our region. I thank you for the opportunity to appear before 
the subcommittee. This morning, I will describe our region and 
its drug threat.
    Let me first express my appreciation to Congress, ONDCP and 
its recognition that while border enforcement is a Federal 
responsibility, the border's impact in terms of drug 
trafficking, violence and other aspects is local. The formation 
and continued support of our California Border Alliance Group 
HIDTA is a response that is important.
    The Southwest Border HIDTA is one of the largest, most 
diverse and unique of the 31 HIDTAs throughout the country. 
There are 45 counties, 5 Federal Judicial Districts and 5 
regional HIDTAs that make up the Southwest Border--southern 
California, Arizona, New Mexico, west Texas and southern Texas. 
Drug trafficking from the Southwest border, without question, 
affects the entire Nation. The 2,000 mile Southwest border 
represents the arrival zone for South American produced cocaine 
and heroin, Mexican produced methamphetamine, heroin, marijuana 
and other drugs and precursor chemicals used to manufacture 
illicit drugs in the United States.
    The California Border Alliance was designated in 1990 as 
one of the five partnerships of the Southwest Border HIDTA. The 
CBAG's area of responsibility is composed of San Diego and 
Imperial Counties, 8,900 square miles from the Mexican border 
to the Orange County and Riverside County lines, from the 
Pacific Ocean to the Arizona State line. The location and 
geography are unique--terrain that ranges from seaports and 
beaches to mountains and deserts, yet home to San Diego, the 
seventh largest city in the Nation. There are two large Mexican 
cities directly to our south. They are served by six ports of 
entry, including San Ysidro, the world's busiest land port. 
Tijuana is populated by approximately 2 million and growing. 
Mexicali, who has a population of 1 million and is the national 
capital of Baja Norte. The 149-mile California/Mexican border 
is roughly 7 percent of the entire United States/Mexican 
border, but it is home to 60 percent of the entire Southwest 
border population. Nearly 6 million people reside on both sides 
of the region's international border. Major highways connect 
San Diego and Imperial Valley to Mexico, Los Angeles and points 
North and East. Maritime routes, railroads, international 
airports, smaller airfields and clandestine landing strips are 
also a major concern. Because of our location and proximity to 
the border, drug smuggling is here and here to stay.
    The primary drug threats to the region are: The importation 
of illegal drugs and precursor chemicals from Mexico; domestic 
production of methamphetamine and marijuana; high drug use 
rates, especially methamphetamine; and, border violence that 
spills over and impacts our region.
    I have provided you with more detailed information in 
written form, but allow me to summarize a few facts and figures 
that illustrate the regional impact during the year 2000: 
217,658 kilograms of marijuana, 4,384 kilograms of cocaine, 62 
kilograms of heroin and 482 kilograms of methamphetamine were 
seized in border-related incidents on the Southwest border. 
Over 151,000 marijuana plants were seized from public lands and 
private property in San Diego County--that is approximately 
330,000 pounds of marijuana that did not hit the street--many 
of them in large remote operations run by Mexican drug 
trafficking organizations.
    Clandestine laboratories, mostly methamphetamine labs, 
continue to plague our region. In the CBAG area alone, 33 labs 
were seized in year 2000. At least 15 major labs were seized by 
Mexican authorities in Tijuana and Mexicali. Eight labs were 
seized in the first 8 weeks of 2001 in Imperial County alone. I 
might add that at those sites, three-fourths of the children 
that were at those sites have tested positive for 
methamphetamine. We have a progression here of adults who are 
making decisions about cooking meth, but they are also dragging 
their children and families into this. In the past, we have 
ignored this, and we cannot continue to do that. We need to 
take some measures to ensure that we do something for these 
children at these sites.
    There were 1,400 meth labs seized statewide in 2000 in the 
State of California. California continues to lead the Nation in 
clandestine methamphetamine lab seizures. Most disturbingly, a 
total of 23 children were present or resided at these heavily 
contaminated clandestine sites, and have been removed under the 
Drug Endangered Children Program for treatment, assessment and 
placement services.
    Methamphetamine use in our region continues to be a 
significant public safety and health problem. Seventy-five 
percent of the arrestees booked into the Vista Jail in northern 
San Diego County tested positive for methamphetamine. Overall, 
arrestee methamphetamine use was just over 26 percent for men 
and 36 percent for women. Which I might comment is a decrease 
from a number of years ago in San Diego County. In 1994, they 
represented 54 percent, so what we are doing is apparently 
having a positive impact, although San Diego County was one of 
the leaders in methamphetamine and it kind of spread from here 
and moved to the rest of the country.
    Drug-related violence continued along the Southwest border 
during the year 2000. In January, the Juarez Cartel issued an 
open contract of $200,000 to kill any U.S. Federal or local 
agent working dope on the Southwest border. On February 27, the 
Tijuana chief of police was assassinated in what is almost 
certainly a drug-related death. Several suspects in the murder 
were later arrested and stated they had been working for Ismael 
Zambada, a prominent Sinaloan trafficker. In one of the most 
disturbing incidents this year, three Mexican anti-drug agents 
were murdered shortly after returning to Baja, CA after meeting 
with U.S. drug enforcement counterparts. They had assigned an 
investigation and arrest of Chuy Labra, the financial manager 
of the Arellano-Felix organization. And in one more example, 10 
armed Mexicans in military uniforms crossed the international 
border at Otay Mesa and fired at least eight shots at U.S. 
Border Patrol agents before returning to Mexico. This type of 
violence does indeed impact our region. The Arrellano-Felix 
cartel has a well-established working relationship with San 
Diego street gangs, and cartel-related murders have taken place 
within San Diego and Imperial Counties as well as in Mexico.
    Our region's response is based on Federal, State and local 
agency cooperation and coordination. We are proud of the fact 
that this region was one of the first, if not the first, to 
form an integrated Federal, State and local law enforcement 
drug task force in the early 1970's. This task force set the 
tone for the level of cooperation in our HIDTA today.
    As a designated HIDTA, we recognize that our response to 
the border and the drug problem must be comprehensive. There is 
no magic. There is hard work, there is commitment, there is 
day-to-day uniform enforcement along the Southwest border in 
the form of the U.S. Border Patrol. The Imperial County deputy 
sheriffs and San Diego County deputy sheriffs makeup a thin 
barrier between the forces of evil that are mounting and 
becoming stronger to the south of us. Until we significantly 
address support to local agencies and the Federal agencies that 
are fighting this war on the Southwest border, we are not going 
to be successful in the war. We need support, we need it on a 
daily basis. We work hand in hand, we have had hand-shake 
agreements for my 32 years as a deputy sheriff on the Southwest 
border. We have had handshake agreements with DEA, we have had 
a relationship with the U.S. Customs and probably the closest 
relationship we have had is with the U.S. Border Patrol.
    Before the HIDTAs evolved, we did it out of friendship, we 
did it out of need. We recognized what was happening to our 
country. As this HIDTA and others have evolved along in time, 
it has been nothing but positive. I am on the wrong end of my 
career to be out there stomping around and putting people in 
jail, but I am certainly proud of those folks that are doing it 
and it is at the Federal level and the State level and the 
local level.
    Thank you.
    Mr. Horn. That is a moving description of reality and thank 
you very much for coming to share that with us.
    Our next presenter is Steve Staveley, director of the 
Division on Law Enforcement, California State Attorney 
General's Office. Is he here?
    [The prepared statement of Mr. Schneewind follows:]
    [GRAPHIC] [TIFF OMITTED] T7056.031
    
    [GRAPHIC] [TIFF OMITTED] T7056.032
    
    [GRAPHIC] [TIFF OMITTED] T7056.033
    
    [GRAPHIC] [TIFF OMITTED] T7056.034
    
    [GRAPHIC] [TIFF OMITTED] T7056.035
    
    [GRAPHIC] [TIFF OMITTED] T7056.036
    
    [GRAPHIC] [TIFF OMITTED] T7056.037
    
    [GRAPHIC] [TIFF OMITTED] T7056.038
    
    [GRAPHIC] [TIFF OMITTED] T7056.039
    
    [GRAPHIC] [TIFF OMITTED] T7056.040
    
    Mr. Staveley. I am pleased to be able to come down to my 
favorite big city, San Diego, and spend a little time here.
    You can read the material that I submitted and you are 
going to hear a lot of themes that make sense to you that you 
have heard already and will hear the rest of the day. HIDTA 
works, makes sense, do it, more of it. We certainly need to 
continue to stay focused on this issue.
    I would take a little exception, Mr. Chairman, with the use 
of the phrase ``war on drugs.'' I do not think there has really 
been a war on drugs, there has been good policing going on and 
continues to go on. A war on drugs is like a war on bank 
robberies, they continue to happen, we continue to work on them 
in the best ways we possibly can.
    I want to take a little bit of time and talk to you a 
little bit about the Division of Law Enforcement, very briefly, 
and then talk to you a little bit about California, this very 
unique place.
    The Division of Law Enforcement is located in California's 
Department of Justice, we are about 1,600 people. The Western 
States Information Network--one of the six RISS's, ours is 
called WSIN--is a five-state project. It focuses on 
intelligence focused around narcotics issues, involves Alaska, 
Hawaii, Oregon, Washington and California.
    Mr. Horn. Could you just describe what a RISS is, R-I-S-S.
    Mr. Staveley. RISS is a Regional Information Sharing 
System. There are six of them in all of the United States. 
Sadly I cannot tell you what they all are, but there are six of 
them, trust me. And they essentially each gather intelligence 
information around criminal conduct, essentially around 
narcotics and share that with their member agencies. WSIN, 
Western States Information Network, feeds information and is 
connected to the NIN that you heard about earlier, San Diego 
NIN, the LA Clearinghouse, and to other intelligence projects 
in California.
    We have--part of my operation is the Bureau of Narcotics 
Enforcement [BNE], which is the oldest narcotics operation of a 
State government anywhere in the country--been operating since 
1926. The California Bureau of Investigation, which is 
essentially California's version of an FBI, albeit very, very, 
very much smaller, and the Bureau of Forensic Services which is 
the crime lab system and the DNA system for California and for 
46 of its 58 counties we are the crime lab.
    I want to talk just a little bit about what California is 
like. This is the largest, most diverse society in the history 
of the world. Federal demographers say we are 34 million 
people, State demographers say we are closer to 35 million 
people. If we went down and got in our car today at the border 
on I-5 and started driving North trying to get to the North end 
of the border, we did not run into any traffic--and I assure 
you that will not happen--if we did not run into any traffic 
and we stayed at freeway speeds, we might reach Oregon in 13 or 
14 hours of steady driving. This is a big place, it is about 
1,200 miles from one end to the other. And if you started at 
the Western end of--as you heard the undersheriff say, if you 
started at the Western end of Riverside County or San Bernadino 
County, San Bernadino being the largest in the country, and 
drove to the Eastern border of that same county, it would take 
you 4 hours at highway speeds if you did not run into any 
traffic. But given the fact there are 10 million people in L.A. 
County, almost 3 million in Orange County, almost 3 million 
here in San Diego County, 1.7 in San Bernadino County and about 
1.6 in Riverside County, the likelihood of not running into 
traffic is slim to none. There are almost 35 million people in 
California. We are the sixth largest economy in the world and 
we remain, ladies and gentlemen, a donor State to the Federal 
Government. That is to say, we send more money there in tax 
dollars than we get back. In all of the services that we 
consume, all the services and benefits that we get back, we 
send more than we get back.
    I believe that all the things you heard said earlier about 
the cooperation between State, local and Federal officials is 
absolutely correct, it is an extraordinarily successful 
enterprise, working along the border, working up and down 
California. Ninety percent of the meth, according to some DEA 
experts, 90 percent of the meth that gets anywhere in the 
United States either is manufactured here in California or 
comes through California--90 percent. And you have heard all 
the other statistics and they are more articulate than I can be 
about that.
    But California methamphetamine strategy [CALMS], which is 
now in its 5th or 6th year of Federal funding, proves we can 
have an impact on that. We have essentially moved the major 
labs out of the metropolitan areas south of the Chuhatchapees 
and moved them into central California and into Arizona and 
into Nevada. Well, we are having a significant impact, but we 
need to continue that effort.
    We have had a very, very successful 19th year, I think it 
was, in our CAMP program, which is our marijuana eradication 
program. Tons and tons and tons of marijuana come to us, 
imported to us, but we grow--last year, we captured 356,000 
plants and eradicated them in California, 70 percent--70 
percent--grown by narcotics trafficking organizations and on 
public land, BLM, National Forest Service. We need to put more 
resources into that.
    And the bottom line I would leave you with, ladies and 
gentlemen, is just that, we have not put enough resources into 
the policing of this issue in California. The Federal 
Government has not put enough money in, I believe the State has 
not put enough money into it. And I think we need to make sure 
that California on this issue in particular stops becoming a 
donor State and starts becoming a receiving State. If we are 
actually going to have an impact long-term, we need to think of 
California as what it is, the place that is the sixth largest 
economy in the world. And if we are going to get serious about 
this and have really good policing around these issues, we have 
to interdict more drugs coming across that border. We have to 
make sure that we are putting enough resources on the border to 
really solve the problem or to have control of the problem.
    I believe additionally that there is yet another role for 
those of us in the State service for the CHP, as an example, 
and for the Bureau of Narcotics Enforcement, as an example, and 
that is to provide that second level of impact just behind our 
Federal colleagues at the border itself. We need to put some 
more resources and I think we need to put Federal dollars 
because it is essentially a Federal problem--we need to put 
Federal dollars into supporting the CHP and the Bureau of 
Narcotics Enforcement in doing a better job of interdicting 
drugs. They can provide the first line of defense for the 
Federal Government.
    And I think those are issues that we have to take some 
serious focus on. But the bottom line is, and I know the focus 
of your committee is, to determine whether or not we work well 
together, the Federal and the State and the local agencies. And 
I think it is--an unqualified response has to be, yes, we work 
very well together. But there are not enough resources devoted 
to taking us to the next level in solving the problem and we 
need to make sure that happens. I hope that after you hear all 
the testimony of these very bright and able people, that is one 
of the things you will come away with.
    One other thing I would like to share with you, if you have 
not read it yet, this is one of the products largely of the 
NIN, I believe, and under the Southern District U.S. Attorney's 
Office. This is the kind of product--I just received this the 
other day and read it on the airplane--this is the kind of 
product that really tells you what is going on in terms of 
intelligence information regarding narcotics activity in the 
Southern District, and in fact, it is repeated in the four U.S. 
Federal Districts here in California.
    There is lots of good quality information out there. What 
we do not have is adequate resources at this stage, to really 
begin impacting. And I will say one more thing and then I want 
to sit down. I realize it is a little disjointed, but I just 
completed a survey of California law enforcement agencies--30 
percent of all the cops in California, and there are about 
80,000 of them, by the way--twice as many lawyers in California 
as there are cops, that tells you something I think. About 30 
percent of them have less than 5 years on the job. Now I do not 
know how long it takes to becomes a good Congressman, I do know 
it takes between 5 and 7 years to be a good radio car driver, 
to really learn your craft, to learn to be a really good member 
of the police service. And one quarter of our people, more than 
one quarter of our people have less than 3 years--less than 5 
years on the job.
    I was chatting with the SAC at FBI in Los Angeles, he is 
responsible for about 14 or 15 million people in his population 
area, has about 600 Federal agents, and 50 percent of his 
people have less than 5 years on the job.
    We also need to--what I am asking for more money for is to 
help us build the infrastructure of police service, the law 
enforcement. And our infrastructure is not usually buildings 
and guns and cars. Our infrastructure is quality people, able 
to enforce the law within the Constitutional guidelines of the 
Constitution of the United States and the Constitution of the 
State of California, and do it right every single time, because 
they know how to do it right.
    And so one of the things the undersheriff said is really 
true. He is 32 years and near the end of his career, I am 34 
and very near the end of mine as well, and we have a whole 
infrastructure of understanding about what it means to be a 
police officer, what it means to be a law enforcement officer, 
what it means to be effective in this business. We have to 
rebuild and we do not have a lot of time to get it done in, 
frankly.
    So I wish you well in your efforts. I hope you get a chance 
to go down and spend a little time on the border itself and see 
the great work of your employees, the Federal officers down 
there. They are very, very powerful and they do a terrific job. 
We just need more of them.
    Thank you.
    Mr. Horn. Thank you. That is a very encouraging thing, and 
I hope you can stay for the questions so we can get into 
corrections and a few other things, if you can.
    We will have one more presenter. The last presenter on 
panel one is Larry Moratto, the commanding officer for 
investigations of narcotics for the city of San Diego Police 
Department. Welcome to your own city.
    [The prepared statement of Mr. Staveley follows:]
    [GRAPHIC] [TIFF OMITTED] T7056.041
    
    [GRAPHIC] [TIFF OMITTED] T7056.042
    
    [GRAPHIC] [TIFF OMITTED] T7056.043
    
    Mr. Moratto. I am happy to speak for the city of San Diego 
and our police department here and as it has been already 
demonstrated, we are unique here and especially in the city of 
San Diego, because our southernmost border is the border to 
Mexico and so it is a unique problem. You also need to 
understand in this region that San Diego is a transshipment 
point of narcotics. We are a focal point of where the narcotics 
come across the border and enter San Diego and Imperial 
Counties. All of those narcotics that enter our region, most of 
them are not designated for the streets of San Diego. A lot of 
them do end up on the streets of San Diego, but the biggest 
percentage is shipped off to other regions, from here all the 
way across to the coast and other places. So it does create 
unique problems. Just in the city of San Diego with our limited 
resources that we have, we cannot handle this problem on our 
own. We have to have help.
    I have been in police work for 27 years and I have had a 
chance to travel the country and see how law enforcement 
agencies interact with other agencies, Federal agencies, State 
agencies and so forth and I have to tell you that I truly 
believe, from my point here and I think I speak for the other 
local agencies in San Diego County, that I have never seen a 
region in the United States where the Federal Government and 
the Federal agencies work any better with the local agencies, 
than they do here in San Diego and Imperial Counties.
    Again, I have been a police officer for 27 years and when I 
went to the DEA Narcotics Task Force as a lieutenant, I had 
people working for me at the narcotics task force, San Diego 
police officers, that had been at the narcotics task force for 
longer than I had been a police officer. It has been a very 
effective--it is probably one of the most effective, if not the 
most effective narcotics task force throughout the country. And 
it has been that way for over 27 years.
    Our cooperation that we have through the Drug Enforcement 
Administration, the FBI, the Border Patrol, U.S. Customs, INS, 
U.S. Postal Service, IRS--we get that on an every-day basis. I 
think of most importance to us here in San Diego is how we deal 
with our immediate community and our neighborhoods. And we go 
right into the neighborhoods and our important thing is 
neighborhood policing. We try and find out what the priorities 
are for the communities, what the priority issues are in 
narcotics with the people in every single neighborhood. And I 
have got to tell you that the DEA, the FBI, U.S. Customs, they 
all partner with us, not just on the big projects, but they 
will partner with us on the smaller projects. They will give us 
the resources or whatever they can to help.
    I was around when we first started HIDTA, I was involved 
when San Diego Police Department first got involved with the 
local HIDTA here and we first started getting funding through 
HIDTA I believe in 1994. There are 18 different initiatives 
right now in San Diego and Imperial Counties that are funded 
through the HIDTA program. I think we have a total of about 
$10.3 million that comes to San Diego and Imperial Counties 
through HIDTA and ONDCP and is administered by CBAG. Our 
California Border Alliance Group, they do an excellent job of 
administering this program, but I have got to tell you, I have 
sat for many years through the process of looking at all the 
initiatives that come in and when we have $10 million to divvy 
up and we have got $20 million worth of requests and 
initiatives that are put in, those $20 million in initiatives, 
I look at them, every single one of them is important, is 
critical to what we need to do in this region to address the 
narcotics problem, but yet we have to weed out, we have to cut 
down, we have to eliminate some of those requests, and it is 
not because they are not valid requests or they are not 
substantially needed in this region, it is because that is the 
limit to the funding and that is what we have to use.
    And if anything that we have, our No. 1 need is to really 
truly look at the unique nature of our community here in San 
Diego and Imperial Counties and see what funding is needed, 
because what you do here does not just affect San Diego and 
Imperial Counties, it affects the drugs that are going into 
northern California, and all the methamphetamine labs and the 
lab cleanups and the things that are going on in northern 
California. The Bureau of Narcotics Enforcement through DOJ is 
extremely helpful and on board as a full partner with us here, 
and again in our neighborhoods and everything that we ask. But 
what we do here and the money you spend in this region is going 
to affect what happens in Minneapolis because we ship lots of 
drugs to Minneapolis, we ship lots of drugs to New York and 
Connecticut and Florida and other places in the country. So 
dollars spent here are dollars spent across the United States.
    And again, the HIDTA program here, you have to continue 
funding that program as much as you can because again, with our 
limited resources, by partnering with the other agencies in the 
Federal Government and State government here, we are allowed to 
have people interdict things at the border and interdict things 
at U.S. post office and UPS and rail traffic and other places 
that we would not be able to even scratch the surface of if we 
did not have the partnerships that we have here.
    So again, I am thankful to you and your committee for 
taking a look at what we have. I hope that you can really give 
consideration to what we need and our true needs are here in 
the future and I am willing to answer any questions you might 
have.
    [The prepared statement of Captain Moratto follows:]
    [GRAPHIC] [TIFF OMITTED] T7056.044
    
    [GRAPHIC] [TIFF OMITTED] T7056.045
    
    [GRAPHIC] [TIFF OMITTED] T7056.046
    
    [GRAPHIC] [TIFF OMITTED] T7056.047
    
    [GRAPHIC] [TIFF OMITTED] T7056.048
    
    Mr. Horn. Thank you very much. And I now yield 10 minutes 
to my colleague, the gentleman from Indiana to begin the 
questioning. And then when his 10 minutes is over, I will take 
10 minutes and so on until we get about 50 questions out.
    Mr. Souder. Let me just say for the record that California 
should not feel bad about being a donor State. I believe 48 
States are donor States and possibly 49. I know West Virginia 
is not, because Senator Byrd takes care of West Virginia. 
[Laughter.]
    But the problem with the donor State debate, which we all 
have and we all holler about is that of course, because of 
Federal operating costs and any money that goes overseas, 
nobody gets a dollar back, because it is in effect an overheard 
charge. In fact, many of us who believe in tax reductions 
believe the best way to make sure you are not a donor State is 
to keep the amount of money leaving your State down to a 
minimum and therefore it stays in your State and you can make 
the decisions in your State. I believe for the record that 
California is less of a donor State than most other States, 
partly because of the drug effort, partly because of water 
questions that we do a lot of Federal supplemental on water, 
partly because of the senior citizen aid and some of that 
goes--disproportionate aid that goes to big city programs. So 
in relative terms, while in the drug area, California may get 
more; in other areas, in the donor question, that is a comment 
that all of us make in our home districts and our home States.
    The biggest challenge we have right now, and I want to get 
this response because it will be helpful as we get into the 
kind of general debate here--the biggest problem we are facing 
right now after about at least 4 years of plussing up of our 
anti-narcotics efforts, we are under the most intense counter-
attack about the so-called failure of the drug war that we have 
been in. These kind of things go in cycles. Political attention 
goes about 2 years and then if we have not solved a problem, we 
want to run away and go to another problem, because we are 
supposed to be politicians, supposed to fix them, not have 
something that is continuing. So we will fund something, get 
you all geared up and ramped up, then we will run over to child 
abuse here or run over to this problem there or missing 
children over here. And then go oh, we have a drug problem and 
we will come running back and plus up the numbers again.
    But I would like to hear your response. You have given, 
each of you, examples of successful things that you have done. 
What I would like to ask, because it is being implied to us in 
Congress as we get into this debate, that the enforcement, 
interdiction, eradication side has failed. The movie 
``Traffic'' is suggesting that oh, well, maybe we ought to just 
give up on the stuff, if we could just reduce demand a little 
bit, everything would take care of itself. The ``West Wing'' 
had a thing about Colombia, probably more people learned about 
Colombia in the ``West Wing'' TV show than had known about it 
in all the other things and their previous knowledge was 
``Clear and Present Danger,'' the movie. We are under 
increasing pressure in Washington to not increase your budgets, 
but to reduce your budgets this cycle.
    What would have happened in the cases that you described if 
your dollars go down? If we either freeze, so that your dollars 
go down in a realistic way, because you do not have the 
inflation adjustment, or you actually get a 10 percent cut, 
what will happen to the amount of narcotics coming into 
California and going to the rest of the country? That is really 
the question being asked of us right now. They are saying hey, 
it has failed.
    How do you respond? What will happen if we reduce your 
budget?
    Mr. Staveley. It goes up. And I do not mean to be flippant 
in my response--it will, it will go up. I mean it is not much 
different than a beaver building a dam on a stream. The water 
backs up on the dam. If the beaver stops doing maintenance on 
the dam, the water will flow through the dam and will continue 
downstream. My sense of it is--and again, I have been a 
policeman for a long time, I do not consider myself an expert, 
but clearly it would have to go up. There will be a direct 
result, more dope on the street, more of our folks exposed to 
it.
    Mr. Congressman, my personal bias is that this not--as you 
face that question, and I know it is a real question, 
California has faced it at the ballot box twice now--as you 
face that question, I do not know why we have to have it as an 
either/or question. You know, demand reduction is a useful 
thing to do, we should do that. Education is a useful thing, we 
should do that. Treatment is a useful thing, we should do that.
    But why do we give up the only effort we have had that has 
even been marginally successful so far at keeping drugs out of 
the country?
    I think you do all those things, you do not do one or the 
other and forget the rest of them. It is like building--it is a 
three or four-legged stool. Remove two of the legs and the 
stool is going to fall over. And I think you cannot just do 
treatment, you cannot do just demand reduction, you cannot do 
just interdiction, you have got to do all of those things, but 
you cannot back up on interdiction or the stool is going to 
tilt over.
    Mr. Souder. Let me ask Ms. Brown, in the Border Patrol, if 
we reduced the number of Border Patrol agents--one of the 
things we heard in the testimony was that people were moving to 
smaller quantities, that was you did not have a big bust. If we 
reduce the number of agents, would we not then also 
reconsolidate the loads? In other words, one of the key 
questions in the budgeting here is that as we do things, the 
traffickers do things. We up our costs, they up their costs.
    Could you explain to me kind of this inter-relationship 
because I think the fundamental question people are asking is 
are we getting a return for the dollar in the drug effort and 
that for marginal increases, if we marginally reduced, what 
would happen on the other side, would they change their thing--
in other words, are we consuming as much as we are going to 
consume anyway and by us reducing the interdiction budget, in 
fact, there would not be much of a change?
    Ms. Brown. Well, first of all, I have the Customs Service 
and Mr. Veal has the Border Patrol.
    Mr. Souder. Sorry.
    Ms. Brown. Quite all right.
    Mr. Souder. You had the quotes on the border that I was 
picking off of.
    Ms. Brown. It is true that one of things that we are facing 
here are the smaller loads, but I think that is just simply 
because the traffickers use this method to get it in, they just 
flood constantly. We are not finding the huge shipments into 
the ports that we have in the past.
    But without the resources to be out there at the ports of 
entry with the Customs or between the ports of entry with the 
Border Patrol, I firmly believe that it is going to come in. I 
certainly cannot give you any statistics that we are consuming 
all that we are going to consume and if there was more, we 
would not consume it. It appears that any time we reduce our 
resources, there is just more openings for the narcotics to 
come in, and I believe that they will come in.
    Mr. Souder. Do others agree with that as well? In other 
words, if we reduce the enforcement, the amount of narcotics 
coming in would increase and usage would increase?
    Mr. Moratto. I believe from a local standpoint and what I 
have seen over the years, not only do I think it would 
increase, but I think how they go about doing their business 
would drastically change. You know, the more money you put into 
interdiction and the more money you put into prosecution, seems 
to have a dramatic effect on how the drug dealers ply their 
wares or how they traffick their product.
    For example, if you bring in 90 pounds of marijuana into 
San Diego County or Imperial County--but I will speak to San 
Diego County explicitly, if you hire a 17 year old Mexican 
national to drive a junker car that is worth $200 with a load 
of 90 pounds of marijuana into San Diego, heading North to Los 
Angeles, if that person gets interdicted say at a Border Patrol 
checkpoint, then what happens is we seize the marijuana, it is 
impounded and burned someplace down the line; the Mexican 
national juvenile is sent back to Mexico with no record 
virtually except that he entered the country illegally and 
there is no prosecution on the case because it is not going to 
be prosecuted because it is below the threshold in U.S. courts 
and it is not going to be prosecuted through the State court in 
San Diego County because there is no nexus to San Diego County 
at all, so San Diego County would be paying the burden of 
prosecution on the case. The drug dealers know how things 
operate in the courts, it does not take them long to do it.
    When big loads were easy to get through, they brought big 
loads. Now they shot gun it with numerous cars carrying smaller 
amounts in a different fashion. They are not stupid, they have 
the cell phones, they have better technology a lot of times 
than we have in law enforcement, and they react to how we go 
about interdiction and prosecution.
    Mr. Schneewind. I would like to comment from a small county 
perspective. If you look at San Diego and then you look East 
along the Southwest border, there is not much there. You know, 
they talk about the thin blue line or the thin green line or 
whatever. The U.S. Border Patrol and your local sheriff's 
departments are what is out there. Imperial County is, dollar-
wise, the lowest per capita income in the State, the population 
is--unemployment rate is the highest in the State.
    You go on into Arizona all the way into Texas and you are 
faced with the problem that if you back away from the 
partnerships or you back away from supporting the partnerships 
we have, you are leaving my deputy sheriff driving around out 
there in the middle of the night to interdict these problems. 
We are right back where we started a number of years ago on the 
Southwest border in Imperial and San Diego Counties, of saying 
the Federal Government does not care about it. My people still 
drive into the middle of people unloading dope out of the back 
of cars and it is a dangerous thing to happen.
    I would like to comment about something else that was said 
here earlier and that is that--I was reading I believe in the 
San Diego UNION about the arrogance of the cartel members. They 
held I guess a little get-together down in Mexico where all the 
heads of the Mexican trafficking folks got together in concert 
with the government, the Mexican Government, and had a meeting 
about let us do away with the bloodshed, let us plan for the 
coming year, let us see what we can do about doing business so 
it does not cost us any more and we can make more money.
    We are sitting here talking about or discussing cutting 
meager funding along the Southwest border while they are 
talking about banking in Zurich.
    Mr. Horn. Well, some of what I am going to ask will relate 
to that. We are in now my 10 minutes and we have a lot of 
questions here.
    So let me ask Mr. Veal, the Chief Patrol Agent in the San 
Diego Sector, one of the things that bothers a lot of Americans 
is every time there is a show like ``60 Minutes'' or something, 
you see, I think it is Douglas, AZ where they are coming in by 
several thousand and obviously those of us that look at that 
show say good heavens, if they can find it with their cameras, 
where is the Border Patrol. Could you tell us what that 
situation is in Arizona?
    Mr. Veal. Yes, sir, Mr. Chairman, I can. Thank you for 
asking the question.
    The same footage that you will see taken in Douglas, AZ a 
few months ago would have been the footage you would have seen 
taken here in San Diego 10 years ago. As I said, 10 years ago, 
we had no plan, we had no infrastructure. We are not in that 
position any more.
    For the 20 years from 1970 to--25 years, from 1970 to about 
1995, one half of all of the illegal entries that occurred on 
the United States/Mexico border occurred in San Diego County. 
And 50 percent of those, occurred in the first 5 miles of 
border. That is, from the Pacific Ocean to the San Ysidro Port 
of Entry, it is 5 miles--25 percent of all the illegal entries 
that occurred in the United States occurred in that 5 mile 
stretch. This was the most heavily trafficked corridor in our 
Nation. And that trend persisted for 25 years.
    That is why I say, folks said, ``Do not even try; you 
cannot do anything about it.'' I think if you have the 
opportunity to come and see that stretch of border today as we 
have systematically applied our Border Patrol strategy, we have 
built that infrastructure. There is now a viable fence on the 
border, there are lights on the border so that people do not 
have the cover of darkness. There are roads, all-weather roads, 
that enable Border Patrol agents to patrol the border.
    We tackled San Diego first. It was absolutely the worst 
place in the country. We demonstrated that you can control the 
border in the United States if you put the right mix of 
technology and resources to it. San Diego is currently the 
template for what was then achieved in El Paso, TX, where I 
also had the pleasure of serving as the chief. Again, that was 
the second worst place in our country. That is now static.
    Mr. Horn. I held a hearing here in 1996, a Presidential 
election year where a lot of things were going on, to try to 
prove at last just exactly what you said, so they poured some 
money in so that the Republican Convention could not make a 
major issue of it.
    But what I did note was when we had the ranchers come at 
the end of that hearing, that they are still flowing through 
the mountains to the East of us. I did not even know there were 
mountains except the Sierra Nevadas, I had never been in that 
part of San Diego. But the testimony was unbelievable, 
including a squad of the Mexican Army who lost their compass or 
something.
    I just wonder if that is where the flow is still coming 
from.
    Mr. Veal. I can tell you, Mr. Chairman, we were not able to 
achieve border control here overnight. It took us 5 years 
before we turned that corner. They are still in the process 
there, but I will tell you this, we are halfway through our 
fiscal year right now. For the first time since Operation 
Gatekeeper began, across the border, from Brownsville, TX to 
San Diego, CA, we have got a 24 percent reduction in the number 
of people attempting to enter our country illegally, and the 
Tucson Sector, which is the area of Douglas that you are 
talking about, has also seen that reduction.
    Mr. Horn. You mean they are reducing the forces, or the 
reduction of the immigrants?
    Mr. Veal. No, no, sir, the reduction has come in the number 
of people who are being arrested, the people who are attempting 
to enter.
    They do not have the degree of control in Douglas that we 
have here and it's going to take them awhile, but I think 
again, the fact that they were able to turn those numbers down 
is a sign of success. And it is not going to be overnight.
    Mr. Horn. Do they not have the help of the local people in 
Arizona, or what is the problem? I mean this has been going on 
now for 3 years that I know of, where they just pour into 
Douglas, they have taken over the town and we are not doing 
anything. And that bothers me.
    So what is the Border Patrol's budget and what-not and can 
that not be moved from some other place where they do not have 
people pouring in?
    Mr. Veal. Yes, sir, we currently have 200 of our officers 
from here assigned outside the Sector, principally to work over 
in Douglas. And that does not just include officers. That 
includes some of our pilots, some of our aircraft, a 
significant number of our vehicles. So we do have that 
flexibility in our strategy to address those issues.
    Mr. Horn. Let me move to another question that would relate 
to the Border Patrol, and that is, I learned somewhere again, a 
few weeks ago where the people that are bringing in drugs and 
everything else through our San Ysidro entry and there is some 
tall building there and apparently the drug lords or their 
stooges are sitting there with bifocals--binoculars and they 
are talking in their cell phone, oh, gee, you do not want to go 
through that gate, let us move over here into that lane. What 
have we done with that? A relative of mine said why do we not 
use a cruise missile on that building to start with. That is 
how people feel, and I do not blame them.
    You are trying to do a wonderful job, but if somebody is up 
there doing that, there all to be all hell broke loose on that 
building. What are we doing on it?
    Mr. Veal. Mr. Chairman, I will address your question to the 
extent I can, given that the Border Patrol has no 
responsibility at our ports of entry. Our responsibility is for 
those folks who try to enter our country at places other than 
the ports of entry, but we suffer the same effects. Our 
officers are surveilled; to the extent that we are aware of 
that, we engage in counter-surveillance. We know that they 
attempt to monitor our movements, our radio frequencies. There 
is a limited degree of cooperation with the Mexican Government 
on a number of those issues. It has always been quirky; 
however, I have seen an improvement in the last few years. And 
I think with the commitment, I believe Mr. Fox is sincere in 
wanting to improve the situation in Mexico and we are seeing 
efforts being done on their side.
    Mr. Horn. So you get the feeling that they are being 
supporting of the new President there, that something will 
happen.
    Mr. Veal. It is certainly not like working with Canada, Mr. 
Chairman. I mean we do not have that--there is not that inter-
governmental relationship. But we do have--we are seeing, and I 
think the Mexicans are sincere in attempting to restore order 
to the border.
    Mr. Horn. I was at a dinner that meets once a month in 
Congress on--and we had officials from the Mexican Embassy and 
officials from the Colombian Embassy, and my question to them 
was you move all of that stuff through your country heading for 
the United States where the money is there, etc. Now, are any 
of your children being hurt by what is going through and they 
said yes, as a matter of fact, we regard it as the most serious 
national security problem we have because it is not just keep 
moving to the Yankees to the North, it is dropping off a piece 
here and there and it is affecting their own children. So I 
think there will be a little change in some of what they are 
trying to do in parts of Colombia and parts of Mexico, but we 
all know that there is so much corruption in both those 
governments, we all wish President Fox the best because he is 
the first breath of fresh air there in 100 years.
    So let me move to infrastructure, and this includes Customs 
obviously and the Border Patrol. What is it you need that you 
do not have--when they are dropping it out of planes from 
Colombia, dropping the drugs right at the border practically 
and out in the ocean and all the rest of it, what do you need 
that you do not have now?
    Mr. Veal. I think, as I said earlier, Mr. Chairman, the 
Border Patrol has a strategy, we call it the Southwest Border 
Initiative. It applies for systematically growing the 
organization to meet the need that we feel we have. San Diego 
is attempting, what we are trying to do now is we are about 
halfway through that strategy. San Diego was the worst place, 
El Paso was the second worst place. That is no longer the case. 
We have demonstrated that if you want to control--if we want to 
control our border, we can do it. And I think we are in the 
process now of growing the organization and replicating what 
has been achieved here and what has been achieved in El Paso, 
at the remaining trouble spots on the border. Currently, the 
focus is Douglas, AZ and that is where we are concentrating our 
efforts currently.
    Again, I think we have got a plan that is working and we 
just need to stick with the plan.
    Mr. Horn. Well, I am thinking of either building fast small 
little boats or ships or whatever where they could go out and 
find what has been floating in the waters from hither to yon, 
and I just wondered if we have got a plan there.
    Now I remember when three colleagues, we went to the Panama 
situation before it was turned over, and it was very clear when 
you looked at the radar where all those traffickers up in the 
air was going was Puerto Rico, and I told General McCafferty 
when I came back, I said, you know, we ought to try to get 
Customs and Immigration to be checking everybody that is coming 
in to New York of course from Puerto Rico. But the facts are 
that politically all hell would have broken out by the Eastern 
Congressmen, what are you doing to my constituents. But we know 
you have got so much of that stuff moving into New York right 
under our eyes--is there ever anything we do to stop some of 
this stuff?
    Mr. Veal. The answer, Mr. Chairman, is yes. Just as the 
smugglers at the ports of entry try to use small--they switch 
to smaller loads of contraband, they just use common vehicles, 
here for example, in the harbor of San Diego, about every 
morning there are about 500 vessels that leave the harbor and 
then at the end of the day, there is about an equal number of 
vessels that return into the harbor. Smugglers do the same 
thing. They realize they have got this traffic, they try to 
blend in with the normal traffic and our ability--as I said in 
my earlier testimony, the Coast Guard has been an excellent 
partner in that effort for us because they have the long sea 
legs, they can reach out and they can tell us some things that 
are on the horizon, so we can prepare to deal with them as they 
get closer.
    The fact that the Coast Guard is suffering budget 
shortfalls now has forced them to curtail a lot and that will 
adversely impact our ability to ferret out the traffic as it 
gets to the harbor here.
    Mr. Horn. I also told General McCafferty we had Navy 
platforms on the East coast, why do we not have some on the 
West coast, and I was told yeah, that is a good idea. Then I 
talked to the people on the firing line here last night and I 
think we are lucky if we had even one Navy platform. I guess my 
query is, are they all sitting here in San Diego for the 
tourist to think wonderfully of the Navy or what? It seems to 
me that if they have got a number of ships here, some of them 
ought to be used for this purpose.
    Mr. Chavez. If I may answer that? JIATF West is responsible 
for the interdiction effort in narcotics coming up from the--
for the cocaine that is coming up from South America. As I 
mentioned in my presentation, there has been over 102 tons of 
cocaine that has been seized since late 1998. What they are 
doing is assisting us at DEA in pursuing our investigations. We 
have preseizure intelligence that we provide to JIATF West and 
that is the Coast Guard and DOD. They go to the areas where we 
suspect that the loads are coming up from Colombia and make the 
seizure. Then they bring the loads up, if we can, for 
prosecution here in San Diego, and if not, they take the loads 
of cocaine to the foreign country. Most often it is Mexico.
    What they are doing is, first, if they have enough planes--
and this is where there is a shortage of P3s. If they have 
enough planes to have an overflight in the area--because it is 
a very large body of water--they can locate the smaller go-fast 
boats or these refueling boats. Then they will send the word 
back to us so we can develop the intelligence to assist in 
finding out which organization is involved. We can use those 
photographs for prosecutions and we can also assist in 
debriefings after a seizure is made and talking to the 
defendants. So there is an awful lot that they can do and will 
be able to do if they have more support.
    Mr. Horn. I am going to have to move on so my colleague can 
get his 10 minutes. You have talked about and showed in your 
presentation very interesting things about well, we have 
arrested them. Now the question is did we convict any of them?
    Mr. Chavez. You are talking--which ones are you talking 
about?
    Mr. Horn. I am talking--on your various presentations you 
have given us certain data that said well, we have got so much 
money here, we have got arrests here and all the rest of it. I 
am just curious, does any of that ever happen where they are 
incarcerated and getting a wonderful little jail term?
    Mr. Chavez. We have arrested over 1,000 defendants every 
year since I have been here in San Diego. It has varied from 
1,300, 1,100, 1,200; but yes, most of our prosecutions result 
in convictions, very few are not convicted.
    Mr. Horn. Would you say it is more than half the arrestees 
you have to be convicted?
    Mr. Chavez. No. I would venture to say it would be--90 
percent are convicted--and that is a rough figure--of the 1,300 
or 1,200 defendants that we have on a yearly basis.
    Mr. Horn. Well that is very good if you can do that because 
frankly, we do not do that with bank robbers. I mean, it is 
amazing the few convictions in some judicial districts. We have 
got some judicial districts along this border area that might 
well just let them off, I do not know. What do you feel from 
your friends from here to Texas? Do they feel they are getting 
support from the U.S. attorney or what do they feel?
    Mr. Chavez. There are areas where we do have more 
defendants than the courts can handle. There is a problem for 
housing the prisoners, for processing the prisoners and then to 
take them to court. Yes, there are judicial districts that are 
more inclined to take a plea. There are other districts who are 
more inclined to have them return to Mexico with a State 
conviction. Here in California we have three strikes and you 
are in for life. So there are different procedures in different 
jurisdictions, and to paint the picture with one brush I think 
would be very difficult. Each area has some unique problems.
    Mr. Horn. At this point in the record we will put a 
presentation from the administrative arm of the Federal courts 
and see if we can get the data as to who was arrested and what 
were the convictions when it got to drugs and see if we cannot 
tighten the screws a little bit. I am sorry to go over.
    Mr. Souder. Mr. Schneewind, in your testimony I had a 
couple of questions on the methamphetamine data that you 
raised. You have in the testimony here that 75 percent in San 
Diego tested positive of methamphetamine or admitted 
methamphetamine use in 1999. But then the following statement 
you said it is actually down slightly.
    Mr. Schneewind. Yes, sir.
    Mr. Souder. To what do you attribute the decline because 
that is not what we are hearing overall on methamphetamine in 
the United States.
    Mr. Schneewind. As I recall, the initial screening was set 
up in Vista jail, which was a project that was funded under a 
grant, and they were screening the folks. San Diego County had 
an extremely high incident of methamphetamine. I do not know 
whether we have been successful at educating folks or getting 
the word out that this is something that is--maybe they are 
selling more of it out of the county instead of in the county.
    Mr. Souder. It is moving through but not as much used?
    Mr. Schneewind. Right.
    Mr. Souder. You mentioned about the 23 children. You did 
not have it in your written statement, but I heard you say 
three-quarters of the children tested positive for 
methamphetamine.
    Mr. Schneewind. Recently we have done the----
    Mr. Souder. Is three-quarters the right number?
    Mr. Schneewind. Yes, sir, in Imperial County. This was a 
situation that we certainly just recently came on board 
focusing on the children at the methamphetamine sites. We went 
a full--our prior year we went with no methamphetamine labs in 
Imperial County. We did some training. I started training my 
field deputies, my uniformed deputies, in recognizing what the 
precursors--what to look for, what is a lab, what can you 
develop. Well the genie is out of the bag, they started 
recognizing what they are and starting developing cases. Our 
local narcotics task force comes in and assists. We have picked 
up children at each one of these sites and they have all--the 
vast majority of them, 75 percent at this point, has tested 
positive for methamphetamines.
    Mr. Souder. What is the range?
    Mr. Schneewind. We are talking infants up to 5 and 6 year-
olds. They are crawling around--when you have in mind--you may 
think about a methamphetamine lab as being some--like your 
science lab in high school or something but that is not the 
case. They may be a vermin-infested trailer that has trash and 
junk all over the floor and crawling amongst that trash and 
junk on the floor is some infant. They do not have to take the 
methamphetamine, they are absorbing it. The methamphetamine is 
just one of the problems. The other chemicals used to make the 
methamphetamines are probably more dangerous. Some of these 
young folks are not going to have a long life span if they 
continue to be exposed to this.
    Mr. Souder. Mr. Moratto, have you seen this in San Diego?
    Mr. Moratto. Yes, we have. In fact, it has been such a 
problem here and in the entire State of California that we have 
a program called DEC, the Drug Endangered Children. We work 
very closely with the courts here in San Diego and the juvenile 
court system has really taken a hard stance on this. We have 
trained all of our investigators to the point--I have a person 
assigned to my office now from the county and that is what she 
does, work with the endangered children. She is a full-time 
employee and works in my narcotics unit just on that problem. 
We are taking children out of drug houses and out of 
laboratories on a regular basis.
    Mr. Souder. Mr. Staveley, has that been a pattern state-
wide that you have seen? Has the law been effective? Has it at 
least forced them to separate--some of them out of fear of 
being prosecuted--their children from the location or what?
    Mr. Staveley. I am not sure that I would make that 
conclusion. I can say, as these gentlemen indicated, that this 
program, DEC, began in Butte County a number of years back. I 
think there are 12 DEC programs in the State, something like 
that now. Of that number, I would say--and I am not quoting, I 
am just estimating--that all of the ones that I read about, 
they are running between 30 and 40 percent, and 75 or 80 
percent of the kids have poison in their blood system when they 
are tested. I do not think we will know what the end result of 
that is. The deputy sheriff is no doubt right, it is going to 
dramatically impact them.
    What most jurisdictions seem to be doing about it is that 
they will put those kids under direct supervision of the court 
to make sure they are separated from their moms and dads. As to 
whether we have impact on kids in the future, I do not--I am 
not sure. We are having an impact on those kids because those 
kids are being separated from the environment going into foster 
homes or mom and dad get fixed up and cleaned up. Then they 
come back together and reunite as a family. But they are being 
observed and watched to make sure that they are not exposing 
those children to those poisons again.
    Is that responsive?
    Mr. Souder. Yes. I was up at JIATF West a few weeks ago and 
the DEA gave me a brief about basically a housing development 
for producing marijuana. Are you familiar with that? We do not 
have that in our record. If any of you are familiar here with 
that--we are going to insert it into the Washington record, but 
it is a development that they have uncovered and they are 
starting to prosecute now. What was a phony housing development 
and they were indoor marijuana development North of San 
Francisco. It is massive--producing something like 30 or 40 
percent of the marijuana for the State.
    Mr. Staveley. Our colleague from the DEA probably has more 
management on it but----
    Mr. Souder. Presumably medicinal marijuana because signs at 
the gate said that this was medicine, you know, when they went 
in.
    Mr. Staveley. It used to be in the Humboldt area there was 
Emerald triangle.
    Mr. Horn. Grandmothers.
    Mr. Staveley. It used to be almost all outdoor grows and 
now it is almost all indoor grows and there may actually be a 
silver lining to our power crisis because they will not be able 
to get electricity at the prices they have had in the past.
    Mr. Chavez. I really do not have any information on that. 
That is in the San Francisco Field Division and so I am really 
at a loss to explain it.
    Mr. Moratto. Mr. Souder, I just want to say on the 
statistics that were quoted about the percentage of people 
entering our jails here in San Diego County, we have a group 
here in San Diego called SANDAG, it is the San Diego 
Association of Governments, and they have an ADAM program and 
they measure this every year and they have for several years. 
Those copies of that could be available to you and it might be 
most helpful in what you see. And they check the population, 
the men, the women, the juveniles, and they do those surveys in 
the jail. So that information is available.
    Mr. Souder. And before giving Mr. Chavez a chance to 
respond to my earlier question, I want to make a comment with 
this, because it reflected a frustration that I am having and a 
number of other people.
    Understanding that politics is almost like a seasonal thing 
in the sense of our interest in different issues and the 
sustainability of public support, and I have been very 
aggressive on the prevention/treatment side as well. I am 
probably the most unpopular Congressman on college campuses 
right now because it is the Souder amendment that says if you 
get convicted of a drug crime, you lose your student loans, 
which every whining newspaper editor in every university in the 
country has called our office.
    But the goal was to get them into treatment, if they go 
through a treatment program, they get their loan back. The goal 
is not to have punishment, the goal is to get people cured. And 
we cannot say that we are really having prevention/treatment if 
we are not holding people accountable for their behavior.
    But we are frustrated. Mr. Horn's question a minute ago 
about the military, quite frankly, our new Secretary of Defense 
has some pretty appalling statements on the record about where 
he sees the drug issues, and hopefully as he comes in, he will 
start to realize that we need the Defense Department to engage 
in this. We need a drug czar. Hopefully, by the time this 
report is printed, we will have a drug czar, but I understand 
we are in transition and I am a Republican, I am very 
supportive of this administration, but I am concerned that what 
you are seeing out of Washington right now is part of this 
grassroots problem, and what we often hear at our hearings and 
what the general public hears--I am afraid, as a baby boomer, 
that it is sounding a little like Vietnam. We get the numbers 
of the drug busts or we get the numbers of the people that we 
caught at the border, but the general public says well, they 
are coming across over here. You know, we got them here, but 
they just came over here. And then, well, you have got this big 
bust, but how come if you got this big bust, there are still 
more drugs in my hometown. And that is the fundamental question 
that we are having to deal with right now, because we are going 
to have some really hard budget numbers, because back home they 
are saying we want prescription drugs in Medicare--where are we 
going to get that money. We need more money for hospitals, we 
need more money for Head Start, we need 11 percent increase for 
education, we do not have the right kind of weapons in the 
military.
    I know you are doing everything you can on the front lines, 
the statistics you gave us today helps, but my question was not 
asked in an unfriendly way, it is that we have to have this 
stuff if we are going to engage in the debate and one of the 
questions is what is their counter-proposal. If we reduce it, 
what is going to happen at the border, what is going to happen 
in California if we actually reduce your funding or do not give 
you the needs, because what you are telling us is you need more 
and yet that is not what people are telling us.
    Mr. Chavez, I cut you off earlier.
    Mr. Chavez. I believe we are going to lose vital 
intelligence, effective law enforcement programs, we are going 
to lose the initiatives that are the most productive I think on 
the Southwest border. If 50 percent of the population on the 
Southwest border is in this area, we should have enough funds 
to address our problem because of the population.
    The intelligence we get is international, we are able to 
get the technology--I mean get the intelligence through 
technical intervention such as Title 3 operations, listening to 
drug traffickers, using informants, paying for information. We 
are able to multiply our effectiveness by developing programs 
to share this intelligence with other law enforcement agencies, 
State and local, get them involved, working with the Border 
Patrol, trafficking trends. We can send that information to 
them or we can work with our counterparts in host countries to 
make the arrests and stop it at the source.
    All of this altogether--if we do not share the 
intelligence, if we do not work together, we do not develop 
these international programs, State and local programs and 
initiatives, we are going to lose the battle. We are going to 
have the traffickers who are criminals recognize our weakness 
and then just fill the void. They are going to come right in 
with multi-tons of cocaine, multi-tons of marijuana. It is 
going to be easier for them to cross the border, easier for 
them to travel to their distribution networks throughout the 
United States. We are going to see more drugs--methamphetamine, 
black tar heroin--coming into the United States, more addicts. 
It is going to multiply the effect all over the United States.
    Mr. Horn. Let me ask you about the forfeiture of assets and 
how it is utilized to help both State, Federal, local, county 
people that have been helping us on that. How do you feel, is 
it OK the way the law is or should some amendments be made to 
it?
    Mr. Chavez. I believe we should amend it. We are suffering, 
we are not having any kind of effect on the traffickers, they 
now routinely file to get their property back because there is 
no real penalty. It is at the expense of the government. And we 
find ourselves on the defense when we know that there is 
obviously a violation of law, the traffickers are using the 
vehicles and conveyances to get the drugs into the United 
States. We should amend that, it is affecting our operations.
    Mr. Horn. Why cannot we just do it and keep it right now? I 
do not get it, what am I missing in the law now?
    Mr. Chavez. What is happening is that the traffickers get 
attorneys to file and that puts the U.S. Government on the 
defensive and we have to then fight to prove that the 
traffickers did in fact have knowledge there were drugs in the 
cars or using the property to distribute the narcotics. It does 
penalize the prosecutor and it makes it more costly for the 
U.S. Government to fight the issue.
    Mr. Horn. We have Camp Irving that trains a lot of the U.S. 
Army. Is it possible that we could dump those cars there and 
let them use live ammunition? There will not be much of a car 
to talk about at that point.
    Mr. Chavez. I think unless we can prove that the 
traffickers used those cars, that we are going to have to fight 
the battle and we will not be able to have those cars available 
to drop any live ammunition on them. It is routine, these 
defense attorneys just routinely file.
    Mr. Veal. Mr. Chairman, if I could, the point I was trying 
to make in my earlier testimony about the impact of the Civil 
Asset Forfeiture Reform Act [CAFRA] as it is referred to, is 
that prior to that enactment, most of the agencies had 
promulgated rules through the Administrative Procedures Act--we 
were able to forfeit. For example, the Border Patrol, 
principally what we see are smugglers in cars, whether they are 
smuggling people or whether they are smuggling drugs, they are 
in a car. Prior to the Civil Asset Forfeiture Reform Act, 
whether that person was prosecuted or not, we were able to 
forfeit that vehicle to the U.S. Government. So at least there 
was a price to be paid for people who were engaging in that 
illicit activity. Since the passage of CAFRA, our ability to 
forfeit vehicles resides in the courts. And as I described to 
you that we have already overwhelmed the Federal judiciary. Our 
inability to seize these vehicles and raise the price of being 
engaged in smuggling has caused a proliferation of small scale 
people who say, ``You know, I really do not have much to lose 
for me to get involved in a smuggling venture, so why do I not 
go ahead and try it?''
    Mr. Horn. What do you think? You are the authorizing 
committee. Do you think we can get something done on that?
    Mr. Souder. Well, one of my questions, what happens right 
now? In other words, during the appeal process--in other words, 
before you could just seize the car, sell it and split the 
assets, because the doubt went to the side of the government. 
During the time they are filing it, do they get to keep the car 
and use the car?
    Mr. Veal. Sir, the Border Patrol is effectively no longer 
in the business of seizing vehicles.
    Mr. Souder. So in effect you just lost it completely.
    Mr. Veal. Yes, sir.
    Mr. Souder. Because of the court backup, you do not even 
bother to--in other words, even if you could seize it and put 
it in a holding place until you got a court resolution, it 
would be a deterrence even if they got it back 3 years from 
now.
    Mr. Veal. Yes, sir.
    Mr. Souder. In other words, that would be a potential 
compromise.
    Mr. Chavez. But there is a problem, because the U.S. 
Attorney's Office does not want to get involved because it 
takes too much of their time and the time of the courts, they 
would just as soon return the car.
    Mr. Souder. So that would possibly require a splitting of 
the--the reason we've gone more to the U.S. attorney is because 
Federal laws are tougher for prosecution purposes and many 
times the local law enforcement wants to go to the Federal. But 
when you do that, the Federal courts, quite frankly--and even 
if we increase the dollars, they are not going to be able to 
handle individual car cases. There needs to be--but if somebody 
in effect has a car tied up for 5 years while they are waiting 
and the Federal courts do not feel that there is any rush to do 
it, you de facto do the same thing, do you not?
    Mr. Chavez. But it is up to the government to pay the 
attorney should they lose. So the whole process, the government 
is losing----
    Mr. Souder. Wait a second, we do not have a loser pays. We 
have loser pays for drug dealers but not for anybody else in 
America?
    Mr. Chavez. No, we pay for legal fees if they prevail.
    Mr. Souder. Do we have that in any other area? We do not 
have loser pays.
    Mr. Moratto. It also costs money to store cars, to tow the 
cars and it is a tow contract that is done through the 
government. So all of that incurs expenses----
    Mr. Souder. We need to relook at it, there is no question.
    Mr. Horn. Boy, I will say. We can be witnesses before your 
committee. [Laughter.]
    I hope we get a pleasant reception, I think we will. You 
are a former U.S. attorney.
    Let me ask a few questions. Apparently we have to be out of 
here by 1:30.
    To the entire panel, why were the problems associated with 
the combined prosecutions initiative not anticipated? Was there 
any problem there? And what were the problems?
    [No response.]
    Mr. Horn. Was that part of the State of California or was 
it all Federal in terms of the combined prosecutions 
initiative?
    Mr. Chavez. I am at a loss as to which one you are actually 
talking about.
    Mr. Horn. Well, let me pass that over then, because we do 
not have time for digging it out.
    Give me a summary of what you think is the current 
threshold for the Federal prosecution of drug cases.
    Mr. Chavez. That is a very sensitive issue because any 
comment that we make about the thresholds, the word immediately 
gets out to the traffickers and they will reduce it by 1 pound 
if we make reference to it, so it is very serious for us, 
because we cannot give a number out there and what we do give 
out there, if the traffickers exceed it, then it overburdens 
the Federal courts; if it is less, then it overburdens the 
State courts. It is a very sensitive issue.
    Mr. Souder. So they should assume it is 1 ounce.
    Mr. Chavez. Well, it depends on the drug.
    Mr. Souder. Or 1 gram.
    Mr. Horn. Mr. Staveley, any comment on that question?
    Mr. Staveley. You know, I am not as familiar with the San 
Diego issues as these folks are, but that makes perfectly good 
sense to me. To keep them guessing, I think that is a good 
idea. I will bet you could get the answer to your question 
after the meeting.
    Mr. Chavez. Probably could, yes.
    Mr. Horn. Undersheriff, in your testimony, you say ``My 
final example of Federal/local cooperation is the combined 
prosecutions initiative which provides funding for cross 
designated assisted U.S. attorneys and deputy district 
attorneys and the prosecution of border drug cases in State 
court. The past 2 years, the San Diego District Attorney's 
Office handled 3,400 port of entry and other border drug 
arrests, allowing the U.S. Attorney's Office to concentrate on 
major violators and conspiracies, while ensuring that lower 
level violators are prosecuted and a measure of deterrence is 
maintained. Ironically, the number of cases being handled by 
the DA's offices has now reached the limits of their 
capacity.'' Another example of local impact which you spoke of 
earlier and what was intended to relieve the Federal 
prosecutor's burden has now severely impacted local 
prosecutions in both San Diego and Imperial Counties.
    Mr. Schneewind. Absolutely. And day before yesterday, I 
spoke with our district attorney in Imperial County and he is 
at a point where he says I cannot handle any more and I am not 
going to handle any more, which we call them threshold cases. 
You reach a threshold and it goes one direction or the other. 
He has reached a point--again, we are a small county--he has 
reached a point where either he gets more help, which is a 
problem because our court system itself at the State level is 
at its maximum as well, so you start stacking things up and you 
never get to trial.
    Mr. Horn. We will send you some questions on this if that 
would be helpful, because I realize that one way to wreck our 
judicial and justice system is when they get overwhelmed with a 
particular aspect and nobody gives them the resources, be it 
the State or the Federal Government. If they are doing the 
Federal Government's duty, they ought to get money from the 
Federal Government and try to somehow--of course, then some 
attorney will say, ``You are just doing this to get the money, 
are you not?'' And so forth.
    Ms. Brown, your testimony notes that the Customs Service is 
responsible for enforcing 600 Federal laws on behalf of the 60 
Federal agencies. How would you grade Custom's success in 
enforcing all those laws?
    Ms. Brown. I think that we do as well as we can with the 
resources we have. It is overwhelming, the amount of things 
that we have to handle. Trade with NAFTA has increased 
enormously and we need to facilitate that trade, while at the 
same time keeping the narcotics and other prohibited items out 
of the country. Narcotics is right now the priority. I think 
that we do a very good job on that, but it is a resource issue. 
There are 700 inspectors at the ports here in San Diego and 
200-plus agents to do the followup, and there are 31 million 
cars a year. The volume is enormous.
    Mr. Horn. The last 3 years I have held hearings in the Port 
of New York, hearings in the Port of Los Angeles and the Port 
of Long Beach, and the fact is, you are under-funded, under-
resourced in this whole area. Commissioner Kelley swore to me 
that he would sure change it in a few months, in a few months, 
etc. And nothing has happened and he is no longer Commissioner 
Kelley.
    So what about that system they have got on how you put 
people in various positions there, based on the load?
    Ms. Brown. We do have a resource allocation model and we 
are increasing our staffing here. It is a slow process with the 
hiring and with the numbers of retirements that we are also 
suffering. We also have the same kind of experience level, it 
is very low at the moment. But we are increasing--the San Diego 
office is continuing to increase, there will be a couple more 
groups of agents here within the next while. The Customs 
Services I believe is recognizing some of that and doing some 
resource allocation.
    Mr. Horn. Mr. Stavely, what do you think the Federal 
Government ought to be doing to help the States that go to the 
front, if you will, of this war?
    Mr. Staveley. If I have a criticism of the Federal 
approach, it is one of the things you gentlemen mentioned a few 
moments ago, and that is throwing the money out and then 
pulling the money back; throwing it out, pulling it back. 
Again, it takes 5 to 7 years to make a decent radio car 
driver--and I know we are not on this subject, but let me just 
make the point, you eliminate the cops money and all of a 
sudden how do we find radio car drivers any more, the money is 
gone.
    I think the mistake the Federal Government consistently 
makes is what you talked to, sir, you jump to this issue and 
then you jump to that. You are just moving the same dollars 
back and forth.
    I really think, as an example, if the Custom Service is 
something you really want to devote resources to, give them the 
dollars, and I hate to say this, but leave them there 10-15 
years. When they keep getting pulled back, that is what 
disrupts the organization.
    Mr. Horn. Right.
    Mr. Staveley. I will speak now for the years I have been 
involved in it, not the Federal Government. When that funding 
goes like this, it demoralizes the troops, confuses the vision 
for what the organization is supposed to be doing, upsets the 
mission and throws the short and long term goals and objectives 
into turmoil. And so I think the first thing I would say is 
make sure you are being steady.
    The other thing I would say is that I would ask the 
question if somebody wanted to do a new drug initiative, how 
does this fit in with the current initiative? I think the HIDTA 
is a wonderful example, a very positive thing, but when the 
HIDTA was funded and brought forth, there was not, I do not 
believe, adequate forethought given to how it would integrate 
into the RISS system, as an example. And we wound up, only 
because we have really good people, we wound up with the 
ability to navigate that, but there was more than a little bit 
of confusion and there was some bumping of ships in the night 
as a result of it.
    So I would ask--the second thing I would say, sir, is that 
I think the integration of new programs has to be carefully 
thought through, in addition obviously to more resources. The 
sixth largest economy in the world here is what we are talking 
about. You have been here several times and I hope you have had 
a chance to get down and spend some time on that border.
    Mr. Horn. Yeah.
    Mr. Staveley. I have tried to explain it to people and the 
only way I can explain it to them is drag them down there and 
have them look at it. It is just an extraordinary, 
extraordinary place.
    And if I may just take 1 more second of your time, Imperial 
County is a place that I have spent a lot of time as of late in 
this job and I have a lot of interest in it. There are 25 
deputy district attorneys and the district attorney in Imperial 
County. It is small enough that the district attorney actually 
prosecutes spousal abuses because he has to, that is his 
caseload. 160,000 people in the county, 100,000-plus a day come 
across the border legally to do business in Imperial County and 
go back across. So they are resourced for less than 160,000 
people but they have a population that is nearly twice that 
size. It is just an amazing place to go. And maybe it is not 
replicated anywhere else in this country, I do not know, but to 
me it feels like Imperial County is really under-resourced as 
well.
    Mr. Horn. Well, I hope I can get there one of these days 
because it is the only county of the 58 that I have not been 
in.
    Mr. Staveley. I would suggest you----
    Mr. Schneewind. Make it this time of the year, not July or 
August. [Laughter.]
    Mr. Horn. Besides the assets bit that I mentioned, I would 
just like you to name a Federal or a State law that, if 
amended, would help each of your organizations perform its 
functions much more effectively. And what changes would you 
recommend? Let us just go right down the line. Ms. Brown, do 
you have anything?
    Ms. Brown. No, sir. In fact, both in Los Angeles and San 
Diego, I had no input from anybody saying that there was 
anything impeding us with working the State and local.
    Mr. Horn. OK, State law or Federal law. OK. Mr. Veal.
    Mr. Veal. Thank you, Mr. Chairman. If I could just 
reiterate, as I said previously, I think there needs to be some 
reconsideration of the Civil Asset Forfeiture Reform Act. I 
would also counsel that you look at the anti-augmentation 
provision. I think that prevents us from availing ourselves of 
a cadre of volunteers, folks in the community who would like to 
provide free services to Federal organizations but cannot do 
so.
    Mr. Horn. And that is barred by law, you are telling me?
    Mr. Veal. Sir, our general counsel tells us that the Anti-
Augmentation Act prevents us from availing ourselves of 
volunteer services.
    Mr. Horn. And you feel the Border Patrol could put them 
through a reasonable training before they go to the border?
    Mr. Veal. Sir, I am not advocating that they would actually 
be doing the work of Border Patrol agents. But we are a large 
organization and we have officers who are involved sometimes in 
ancillary duties and those are the functions that I believe 
volunteers could do, freeing up Border Patrol agents to do our 
core law enforcement mission.
    Mr. Horn. I agree with you, let us see what we can do about 
that, I think you are absolutely right.
    Mr. Chavez, what would you pick?
    Mr. Chavez. Well, the drug of choice in San Diego County 
and Imperial County is methamphetamine. Ecstacy now is becoming 
one of our major problems because of the RAVE parties. I would 
like to see stiffer penalties for both methamphetamine and 
Ecstacy. I do not think there is an appreciation for the 
seriousness of the effects of the drug and if we can make it 
known to the public and there is a stiffer penalty, it most 
certainly would help us.
    Mr. Horn. Very good. Mr. Schneewind.
    Mr. Schneewind. On the local issues, I would address a 
couple of things for Imperial County and one of them deals 
directly with INS or U.S. Border Patrol. They have a national 
policy of non-pursuit, which creates a real tragedy in my 
county inasmuch as Interstate 8 passes very close to the 
international border out across the desert. I have load 
vehicles that load up on the border, line up between the two 
Immigration officers or Border Patrol officers who are standing 
watch, and at a high rate of speed jet between them, hits 
Interstate 8 in the Eastbound lane traveling Westbound. They 
may have 10, 15, 25 people in a vehicle. The Border Patrol says 
we cannot pursue. Meanwhile I have folks coming down the 
freeway that are good taxpaying citizens of the United States 
and probably out of my community that are in danger. I guess 
this mentality is well if you cut a tree in the forest and 
there is nobody there to hear when it falls, there is no 
problem.
    Well, that does not serve well in as much as we have wrecks 
all over the freeway with these vehicles, even not running into 
people, just running off the road and crashing. The California 
Highway Patrol has not done much better in that they are--I 
believe their stated policy is if the Border Patrol calls and 
they are not pursuing, we are not getting involved either, 
which leaves it to me I guess and my coroner's office to clean 
up the mess down the freeway when we have families that are 
smeared all over the roadway.
    Mr. Horn. This is long before your time I believe, Mr. 
Staveley, but when did it go where local police could not pick 
up people that are coming over the border.
    Mr. Staveley. Actually it was not long before my time, I 
was actually doing some of that a long time ago.
    I think it was in Mr. Nixon's term, his attorney general 
opined I believe--if memory serves, his attorney general opined 
that it was in fact a Federal law that only Federal law 
enforcement officers could enforce. And he forbade us from 
being so involved, absent a local violation.
    Mr. Horn. Well, that is good to know because I never had 
that pinned down, so it is an AG ruling for the Federal 
Government.
    Mr. Staveley. I believe that is correct, sir. At least that 
is my rather ancient memory.
    Mr. Horn. Yeah. Well, that's pretty good memory.
    Let me thank you all. You did not get a chance, Mr. 
Moratto.
    Mr. Moratto. I agree with the Border Patrol, the asset 
forfeiture would really be a big help. That money that comes 
back to us helps our resources that we have go directly back 
into law enforcement activities and help stem the flow.
    Also, I would like to see the State government and the 
Federal Government get together on how they look at Schedule 1, 
2, 3 drugs and so forth and have the same kind of matrix, so 
that if somebody is arrested in Boston for having heroin, it 
would have the same effect in the courts that it would if they 
are arrested in San Diego.
    What happens is you get this mix and again, drug dealers 
are not stupid, if they know that they are not going to get 
prosecuted for bringing over ketamine into San Diego, they are 
going to bring it into San Diego. If they know they are going 
to get prosecuted for it in Florida, they are going to come to 
San Diego. And it is just that simple. We have loopholes in our 
laws when it comes to things like Ecstacy and ketamine and some 
of those other things and we have a differential between how 
the Federal Government looks at it and how the State 
governments do and I would really like to see it pulled 
together.
    The other area, I would like to see a lot of effort put 
into what happens with the Ecstacy and the drugs that are used 
in the culture today for the youth, because we are seeing 
openly across the United States, and it is here and it is 
probably going to be our biggest drug problem in San Diego in 
the coming 2 to 5 years, that is those RAVE drugs, where openly 
you see 20/20, you see 60 Minutes, you see these people go on 
and the people line up at tables coming into sponsored parties 
that are supposed to be closed parties, safe parties. The 
parents get the flyers, they think their children are going 
into a safe environment and the kids are lining up to test 
their Ecstacy to see if it is good Ecstacy before they use it 
when they go into parties. And the producers of that party have 
got 1000, to what we had here in Paris in Riverside County, 
where they had 40,000 people at a RAVE party and they are 
lining up to test their Ecstacy to make sure it is good Ecstacy 
before they get in and the producers are making mass amounts of 
money on these parties, knowing that there is illegal drug 
stuff going on.
    We need penalties for that. We need to fix penalties on 
people that are facilitating these parties and facilitating the 
effort to get these drugs to our children.
    Mr. Horn. Now this would be a law that said who is going to 
get the situation, is it the people that put up the party, is 
it the people that go to the party? Have any dropped dead yet?
    Mr. Moratto. Children?
    Mr. Horn. Quite a bit?
    Mr. Moratto. Hundreds and thousands.
    Mr. Horn. Right.
    Mr. Moratto. For one thing, until about a year and a half 
ago, most coroners never even tested for some of these RAVE 
drugs that kids are dying of. And what they do is they go and 
they will go onto Ecstacy and the next thing they know, they 
are inhaling helium and some of these other things, nitrous 
oxide, and they do it en masse. One thing alone may not cause 
the problem but when they do two or three different drugs in 
concert and they cocktail this, then they die. And quite often 
it is put down as a drug overdose or an accidental death or a 
heart attack, when we do not even know, we have not got a clue 
nationwide how many kids have died this way.
    Mr. Horn. Well, that is where I am going next. The Centers 
for Disease Control in Georgia, they are supposed to keep data 
on a lot of these things and it seems to me somebody has a 
record, there is obviously a police record. How about the 
coroner's record?
    Mr. Moratto. As I mentioned, a lot of times it was not even 
tested for in the normal coroner's report and a lot of these 
drugs disappear from the system after a short period of time. 
For instance, here in this area, the military, they have random 
testing, they have mandatory testing in the military, but they 
know they can go out on a Friday night and they can ingest GHB 
or they can ingest Ecstacy and they know it is going to be out 
of their system by the time they report to duty on Monday. If 
they get tested, they are clean.
    If you go on the Internet right now, you could probably 
find 50 companies that have masking chemicals that they sell so 
if you are going to have a drug test, you ingest the chemicals 
and you are going to get a clean screen. It is a huge industry 
that is out there right now around these RAVE drugs and Ecstacy 
and so forth.
    Mr. Horn. You have pointed out a major situation we have 
obviously got to deal with one way or the other. Before I yield 
to my colleague, it will mean a lot of people are put into your 
local jails, which are already stuffed and have State prisoners 
and sometimes Federal prisoners by contract in your local jails 
in this State. Why can we not do what the sheriff of Maricopa 
County does, in Arizona, stick them under a tent and put them 
say in a place like Barstow or Needles in the summer time and 
see how long people will start doing some of this nonsense and 
it will not be watching TV and it will not be lifting barbells, 
which we have found--finally the police said gee, those people 
have certainly gotten strength when they have been in the 
Federal prisons. It seems to me we have got to get away from 
that one so it does not take six deputies to pin them to the 
floor as they run out the gate. I think that is another area we 
have to deal with on the corrections side.
    The gentleman from Indiana.
    Mr. Souder. Just so you know, each of the last 2 years, we 
have been increasing both our Federal effort and our oversight 
on the methamphetamine and you are going to see it accelerate 
more rapidly. At the Anti-Narcotics International meeting in 
Santa Cruz, Bolivia, the next conference is going to focus 
worldwide on the synthetic drugs. Netherlands is a big help 
because they are claiming because they legalized all drugs, 
they do not have a problem any more. Yeah, that is because they 
are shipping it here and everywhere else in the world, with 
Ecstacy. And we are going to continue to try to focus on that 
and it has been a definite problem in local law enforcement of 
not even having testing data. but I think the awareness level 
is going up, that is going to be one of the primary focuses of 
our committee over the next 2 years, as well.
    And we will definitely followup on this question of the 
different measurements. At the Federal level, There crack and 
powder differentials on how to compromise this, we are not just 
going to go down to one or up to the other. There will probably 
be some kind of compromise. And it is compounded by what you 
told us here today, which is different districts probably have 
different thresholds, depending on their caseloads, and unless 
we can catch the courts and the prisons up in the dollars, we 
are going to have trouble standardizing but it is still 
something we ought to focus on.
    I have a couple of other questions I may submit in writing 
if I feel it needs to be in the record, but Mr. Veal, I wanted 
to ask you this to make sure we get this written more on the 
volunteers question, the anti-augmentation bill.
    What I would like to have for the record, because we are 
out of time here this afternoon with the room, is what in 
particular you would have used this before, how you would have 
used it before we passed the law, how you would use it 
currently and how to address the following questions where I am 
sure the objections are coming. We have run into this in youth 
homes, we have run into this in our Federal offices, we cannot 
have volunteers in, partly it is that obviously it could not be 
somebody who had prison time, it could not be a spouse or a 
family member of an employee because then it would be under 
duress potentially or it could be part of a bonus system. 
Clearly the unions and government employee groups are not going 
to like this because potentially it replaces employees--as if 
we were going to hire more anyway, you are all short-staffed. 
But theoretically it does.
    So anticipating some of those type of things, how would you 
exactly use this, how would we amend this to reflect those kind 
of concerns--coercion, unforced overtime, extended family 
friends, ways to get bonuses, those types of things. Because we 
are running into this across our Federal system.
    I thank you all for your testimony.
    Mr. Horn. This has been a very interesting day as far as I 
am concerned. I think you people who are on the firing line, 
you deserve the appreciation of all of the American people. It 
is tragic what is going on in this country, that too many 
people turn a deaf ear to it and say oh, well, you know, this 
is just some wacky person or something.
    Well, they are not--when the brains go to pieces and all 
that we see with the teenagers now, and they do not take any of 
us parents, one who are parents of a teenager, it is a very 
tough life. Somebody said you are free once the kids get 
through college and the dog dies. Pat Leverage, do not write 
me. I am the humane pet growers No. 1.
    So we want to thank each of you and we will--Mr. George, 
the chief of staff, general counsel of the subcommittee that I 
chair will be sending you some questions and so will Mr. 
Souder, and we would appreciate you answering them and we will 
put it in the record at this point.
    So thank you so much for coming. It is wonderful to see 
you.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T7056.049
    
    [GRAPHIC] [TIFF OMITTED] T7056.050
    
    [GRAPHIC] [TIFF OMITTED] T7056.051
    
    [GRAPHIC] [TIFF OMITTED] T7056.052
    
    [GRAPHIC] [TIFF OMITTED] T7056.053
    
    [GRAPHIC] [TIFF OMITTED] T7056.054
    
    Mr. Horn. Panel two is Roosevelt ``Rosey'' Grier, chairman 
of the board, Impact Urban America; Estean Hanson Lenyoun III, 
president, chief executive officer, Impact Urban America and 
Ken Blanchard, chief spiritual officer, the Blanchard 
Companies.
    We will swear in the three witnesses. If you want to raise 
your right hands.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note all three witnesses have 
assumed the oath and we will start with Mr. Grier. We 
generally--let me repeat the ground rules--some of you do not 
have written things, if you want to file them later, please do. 
If you do not, we will give you about 5 minutes of summary 
because I guess when are we leaving this room? 1:45. So what we 
have got here is--we only want fast talkers on this particular 
operation.
    Mr. Souder. In a positive way.
    Mr. Horn. In a positive way.
    Mr. Souder. We see enough of that in Washington.
    Mr. Horn. So, Mr. Grier, a rather well-known figure 
nationwide and we are glad he is in San Diego. I think he is 
too.

STATEMENTS OF ROOSEVELT ``ROSEY'' GRIER, CHAIRMAN OF THE BOARD, 
IMPACT URBAN AMERICA; ESTEAN HANSON LENYOUN III, PRESIDENT AND 
    CHIEF EXECUTIVE OFFICER, IMPACT URBAN AMERICA; AND KEN 
  BLANCHARD, CHIEF SPIRITUAL OFFICER, THE BLANCHARD COMPANIES

    Mr. Grier. Mr. Chairman, distinguished committee members, I 
am excited about being here this afternoon and I was listening 
to the other panel that you had here and it is exciting to meet 
people like yourself who are concerned about the welfare of our 
communities, because that is basically what we are about.
    I would say these two gentlemen have made a commitment with 
their lives to serve the community, to help make it better and 
since I came from football, I believe in the team concept that 
nothing can get done by one person. You cannot do it, I cannot 
do it, but we can. And we all have something to give.
    When you speak about drugs, I think about why do we have 
that problem. And then I think do we really have a drug problem 
or do we really have a people problem. Because why are people 
on drugs. Of course, I realize that there is a big business 
going on to make or to grow or to sell drugs and young people 
realize or think that they cannot find a job, this is the best 
job they can find. And so we have to change those notions, we 
have to help and encourage young people to realize that they 
are very, very important to all of us, they are the ones that 
are going to make our Nation better and we, the grownups, have 
to try to live by example, let them see the things that we do 
to help them.
    And that is why when I met Estean Lenyoun and Ken 
Blanchard--I met Estean first--and we began to look at the 
community to see how we could help. And we started Impact Urban 
America. The purpose, we saw whole men, we saw them have 
spiritual needs, mental and physical needs and how could we 
meet those needs. And as we search more in urban communities, 
we began to see that there was no way you could change that 
community unless the people caught the vision themselves and 
wanted to make a change. And when they went for a job, they did 
not have the skills and talent, they did not have the 
background to work. So what would we do about that.
    So when we met Ken Blanchard, we realized that he had a way 
of training people that would not only inspire and motivate, so 
what we figured out was if we join ourselves together, not only 
with the government, but with the corporate community, with the 
churches, then we could really effect a change--not 
individually but as a group working together. And the more 
people that we could work together, we would find that the way 
to solve problems is by seeing who is doing what and how we can 
join ourselves together. The one who found a way of doing it 
could be the best one to serve. So what we started here in San 
Diego was a model and that is what we are about here. We 
figured that if we can get the model working, we would not only 
help in the drug war, but we could solve many of the other 
problems and make people feel and know that they are precious 
and valuable and unique and there is no one in the world like 
them and that they can win. But we all need to work together to 
do that.
    And so we are just here this afternoon to share with you 
some of the things that we have been doing and to hope and see 
how we can work together with you because basically we are set 
out to serve our fellow men and we are here to help you in your 
efforts as you will help us in our efforts to do the same 
thing.
    Mr. Horn. Thank you. That is very moving. And now we have 
the president and chief executive officer of Impact Urban 
America, which Mr. Grier is chairman of the board. So Estean 
Hanson Lenyoun III.
    Mr. Lenyoun. Thank you very much, Mr. Chairman.
    At Impact Urban America, one of the things that we like to 
say is we take people from dope to hope. We believe that it is 
a problem that cannot be solved just with economics. We know 
that the reason that people go to drugs are low self-esteem and 
as we have set up Impact Urban America, I would like to share a 
little bit about the organization that took place first, and it 
was called Rosey Grier's American Neighborhood Enterprises.
    Being a native San Diegan and seeing the problems and being 
a part of the problem in the past within our local community 
and recognizing them very readily, realized that people needed 
opportunities, so we set up a community in southeast San Diego, 
one of the roughest areas in southeast San Diego. In fact, they 
said that it was the roughest. A community of approximately 300 
people initially where there was 1,300 violent police calls a 
year. When we acquired this community, within 18 months we were 
able to drive the stats down from 1,300 on a norm annual 
incidents to just 1. We also found this community had in excess 
of 98 percent, we think, up to 100 percent, drug addictions 
with the individuals living within the community. Within 18 
months, we were able to take that 98 percent infested community 
to zero, drug free. Also, we were able to provide job 
opportunities. One of the stats that was very exciting which we 
got recognition from our Mayor Golding, was that we had 98 
percent welfare, 2 percent were working. Within 18 months, we 
were able to take this community to 93 percent employment.
    People wanted to know how we can make this work. And what 
we did is we set up a community called No Compromise 
Communities, no gangs, no drugs and no violence. Found it to be 
very successful, it was part of the prototype that led us to 
Impact Urban America. And this model is a faith-based social 
entrepreneurial model that we believe can revitalize and we can 
replicate throughout the inner cities and urban communities of 
this country. The models are a partnership between church, 
community, corporation, government.
    What we are here today to ask you about is how we can be 
more involved with government to start replicating this model 
in other parts of San Diego, one; in California; and hopefully 
nationally. We have had the privilege to be able to put on 
workshops in the inner cities, targeting not only our 
unemployed, but our under-employed, and then most recently our 
youth, so that we do not have a generational concern with our 
young people not knowing how to deal with these constraints.
    We started the first faith-based inner city staffing 
company and we found that it was not difficult to get people to 
get a job, the hard part was enabling them to keep the job. And 
as we delved more into this model, we realized we needed a 
component with job and life training skills. We believe that 
people go to drugs and get involved in drugs and stay in drugs 
because they have no hope and they have no way out. We have 
found that it is tied back to their assumed constraints.
    We were looking at the best model to be able to implement a 
program on making people more aware of how to not only stay 
complacent--to get away from that complacency, how to re-enter 
the mainstream. And we discovered a gentleman here in town with 
a national organization and I believe even international, that 
does self-leadership training and that was the Ken Blanchard 
Companies.
    At that point, we were able to put together a relationship 
and ask Mr. Blanchard to come on our board of directors, which 
he did, to set up a new model for job and life accountability 
skills. We find that will drive down the drug dependency, the 
complacency and give people the opportunity to re-enter the 
mainstream.
    Mr. Horn. Thank you very much.
    Dr. Blanchard. He is the chief spiritual officer at the 
Blanchard Companies. You might tell us what your company does.
    Dr. Blanchard. Yes, we are a full service human resource 
development company. We do training for companies in 
leadership, team building, customer service, and what Estean is 
talking about, self-leadership. We created a program for 
students and young people to try to teach them how they can 
take initiative when they do not have the power; how do they 
take initiative when they are not in charge. One of the things 
that happens with violence with kids is that they think there 
is only one kind of power in the world and that is position 
power, and if they do not have it, then a gun maybe would give 
them position power.
    A major mantra for our company is people who produce good 
results feel good about themselves; as Rosey and Estean said, 
our emphasis is on how do we increase people's self-esteem so 
that they do not go toward drugs as a way to make them feel 
good. Because it is obviously a self-esteem problem because 
people who feel good about themselves do not need any outside 
forces to do that. When people do not have hope, they think 
they have no power. The question then becomes how can they take 
initiative. We have been working for 25 years on developing 
programs like these.
    My mission statement is to be a loving teacher and example 
of simple truths, that helps myself and others to awaken the 
presence of God in our lives. I say ``God'' because I think the 
biggest addiction in the world is the human ego. The ego gets 
played out in bad ways in organizations through false pride, 
which makes government agencies bureaucratic and everybody is 
sucking up the hierarchy and the organization serves the people 
who are elected. And do not serve the customers. So, that is 
one other aspect of self-esteem.
    The one we are talking about here though is people who do 
not think they have any hope and so we have developed a 
program, which is a combination of teaching people life skills 
that they need to get in terms of their own personal hygiene, 
in terms of their dress, in terms of their attitude, their 
whole thing, and then combine that with focusing all their 
energy on how can I make a difference to customers, because if 
they want to take care of themselves and keep jobs, they need 
to realize that the customer writes their check. And so we are 
really getting--we just flew over with a group of people that 
were just hired to see their enthusiasm and the feedback from 
the employer saying wow, these people, they know more about 
serving customers than we have ever seen in anybody. And then 
we are also teaching them self-leadership which is, you know, 
how do you ask for what you need rather than complaining and 
acting like the victim.
    So our part of the puzzle, and there is only one part, so 
we are not saying that the other parts are not important, is 
how can we help people to have hope rather than do dope as 
their solution for life. To get the kind of skills that they 
need to make a difference in their lives because people who 
produce good results, who have a job they can keep and making 
an impact, feel good about themselves and that feeds on itself, 
feeds on their willingness to maintain their family and all. So 
the piece of the puzzle that we are in is there, we do not know 
much about, you know, how you prevent them from coming across 
the border or all those kinds of things, which are major 
problems that you have been talking about, but we want to be 
able to impact the human problem and see if we can deal with 
that as a way to deal with the drug situation and how do we get 
people that they just would not be into it because it does not 
make any sense to them. How do we look at their spiritual 
needs, how do we get them to get out of their own way and 
realize that God did not make any junk and that they are 
important and at the same time, how do we give them the skills 
that they need.
    And so we are excited about the potential of teaming up 
together to create a program where we can go to employers and 
say here are some under-employed, here are some people whose 
lives have been at risk in the past, we want you to hire them 
but here is the kind of training they have been through before 
they even come to you. You know, these people know about their 
lives, they know about how to take care of themselves 
personally, they also know that without taking care of your 
customers, they are not going to be of any value to you, and 
they also are going to be people who are willing and able to 
take initiative and take responsibility and be empowered. And 
so that is where our excitement is and we do not hear that 
shouted out too much when we talk about the drug war, but we 
think that is a piece that ought to be considered.
    Mr. Horn. That is very moving.
    How many souls have you saved down there, besides the mayor 
and the City Council? [Laughter.]
    Mr. Lenyoun. We are working on them.
    Mr. Grier. And the church too.
    Mr. Horn. And the church.
    Mr. Grier. We have seen a great work on the part of the 
church because basically we kind of look at it like it that if 
the inside of the person is not changed, the outside is going 
to look good but it is going to be messed up inside. So that is 
where the whole man concept came in. If we can get the church 
involved in teaching the person about who he really is and that 
he is not by himself in his struggles and his effort to change 
his life, but there is a lot of support for him, then we can 
really see a change when the church is involved. And to sustain 
that person is not to sustain him on intellect or on philosophy 
but on the word of God, which does not change. And so that is 
why we are excited about bringing all these pieces together, 
because what it really does is let the whole man see the light, 
that he is an important person.
    Mr. Lenyoun. And if I may add, it is that the church has a 
lot of capabilities to provide for a lot of needs that have 
been dependent upon the government up until now. Things like 
clothing, things like helping with a shelter, things like 
helping with childcare. And we are seeing a partnership and a 
desire on behalf of the churches to want to take back some of 
the responsibilities that they advocated and to be able to 
provide another link with accountability too. If we work with 
the church and we work with a synagog or we work with a 
Catholic Church or whether it is any denomination, we have 
another level, whether it is a rabbi, a priest or a pastor that 
we can go to and say this person has made an accountability 
contract and they are having a tough time, would you help us 
with them. And so I think it is very key that the churches are 
a major resource, especially in the inner cities. They are the 
power base. It is a place where people can meet, where they 
have the capabilities to house a large number of people to get 
the message out, to get the training programs in place.
    In terms of your numbers, our little organization, the 
first year, we had estimated that if we could affect 100 lives 
or so in terms of employment, sustainability types of jobs, 
that would be wonderful. We did 1,000, we did 1,000 the 1st 
year. This year we will double that in just this prototype and 
this is the model with church, community, corporation, 
government.
    Corporate America has a tremendous responsibility because 
they are--we are not asking for a handout, we are asking for 
them to provide employment opportunities for people to come in 
and have an opportunity to provide for their families, to be a 
role model in their communities.
    The great part too that we figured out was that it can be a 
weekend type of training program, because the assumed 
constraints were acquired over a long period of time, decades, 
if not generations in some cases, so it became very vital that 
we had to have ongoing training within corporate America. For 
the first time, we are seeing corporate America take the 
initiative and have the desire to have an ongoing training 
program in place to help people overcome those assumed 
constraints.
    Mr. Horn. As you know, President Bush has a faith-based 
program that he is sending to Congress. And based on all of 
your experiences, it seems to me that you have some great ways 
to put together a pilot program which would give guidance to 
large groups or medium groups or just 10 or 15 or 20 groups. 
They need teaching themselves. They might think because they 
have been doing good deeds over their lives, giving clothes or 
all those items you mentioned--it is going to be more difficult 
than that and then you are going to have the problem, and I 
wonder your reaction to that, that some group will say hey, we 
are a church, we are this, we are that, let us get that Federal 
money. How do you deal with that?
    Mr. Grier. I think that you have to look at who and what 
those people are, I mean what is your track record. If you look 
at me, I have been working in the inner city since 1971. I made 
a commitment to gang kids that I would spend the rest of my 
life until I see that community change. Went from the gang kids 
to the senior citizens. And so it is about how long have you 
been doing this, what is your track record, those kinds of 
things. You cannot just give it to anyone who comes. What are 
you really doing. And there has to be some oversight, you have 
got to see what they are doing and take a real look at that and 
see can this group best serve the community. And find the ones 
that are doing it, even if you want to put them together so 
that the umbrella, the management of the whole group is key 
also. Who is overseeing, who is looking at it. Those are the 
kinds of things that must be in place in order to make sure 
that these things are doing what they said.
    I noticed when you were talking about lowering the budget 
and the lady outside in the meeting room asked me, what do you 
think about that. I said, one, you have got to see what the 
money is already doing that you are putting in there. Can it be 
a higher marshalling of that funds, is it doing what you put it 
in there to do. And those are ways you monitor and see the 
effect of it.
    And we were--Harvard was asking to do a study on what we 
are doing and we did not say yes yet, because we just want to 
really take a look at it and see what we are doing and continue 
to monitor what we are doing to make sure we are being 
effective, and we think we are.
    Mr. Lenyoun. May I add, Mr. Chairman, too, I think we have 
to look at the hearts of the individuals involved and why they 
are really doing it. If this is something that is financially 
lucrative for them, I think that has been a problem in the 
past. I think that when we see partnerships and what we call 
the vested interest partner, which is why the church is doing 
what they are doing, is there any type of gain--no. Is 
corporate America doing this for gain--yeah, they are looking 
for good employees and they found hidden labor pools in the 
inner cities, not outside the country any more, it is sitting 
right there if we can identify those diamonds.
    I think a classic example has been the relationship with 
the Ken Blanchard Companies. Very high end managerial 
expertise, training and development and Fortune 500 types 
definitely, nothing targeted at the inner city level. When we 
entered into our relationship, for the first time, Ken took an 
initiative to come up with a program that was targeted to less 
fortunate people, inner city, on the street people, which is 
not going to make them money. And when I talked to Ken about 
that or when we talked to him about it, it was about to give 
back to the community.
    I think it becomes real clear if you have the real high end 
types of organizations that are willing to put their reputation 
and some of their own resources on the line to make something 
like this work. And I think that the moneys that the government 
gives will help with just the magnitude, helping to get the 
prototype to a point where it can be replicated in other parts 
of the city, the State and the Nation.
    Mr. Horn. My colleague from Indiana.
    Mr. Souder. When did you say this started?
    Mr. Lenyoun. This started in November of--Impact Urban 
America started in November 1998. Rosey and I started with the 
American Neighborhood Enterprises in the early 1990's. It has 
been about 10 years since we started initially with the housing 
model and then we went from housing to staffing to provide jobs 
and from staffing to training and development.
    Mr. Souder. And that was also all in San Diego?
    Mr. Lenyoun. Absolutely, that is correct.
    Mr. Souder. First, let me say to Mr. Grier, I believe--in 
an earlier reincarnation of my life I was actually the 
Republican staff director of the Select Committee on Children, 
Youth and Families, and I believe you testified in the mid-
1980's, Dan Coats and George Miller were the Members, on 
alcohol problems and how to reach youth. But what I want to say 
is that like Chuck Colson, one way you can measure people's 
lives is whether they have made the statement--and we are 
really happy for any public figure who jumps in and does that, 
but when you have done it for 30 years, you know it is a 
commitment. We really appreciate that and millions of Americans 
are familiar with you and appreciate your work in different 
forums and it comes back and different points and in different 
ways. But I wanted to make sure I got that on record, because 
we appreciate that very much.
    Mr. Grier. Thank you.
    Mr. Souder. Not only your commitment, but you are willing 
to stick to it decade after decade, which we desperately need.
    I would encourage you to, in the Harvard or any type of 
study--I mean I know--make sure that they--we need the data 
because we have a whole bunch of stories but we do not have the 
data. And to move to the next level, we need the data. On the 
other hand--so I encourage you to do that, but make sure they 
understand and have some sympathy to the complexity of a faith-
based mix. Otherwise, if somebody comes in hostile, let us say 
figures lie and liars figure, that you do not want somebody who 
is not--you do not want them overly sympathetic so they rig the 
books your direction; on the other hand, you do not wand them 
unsympathetic and do it the other direction. We need real data 
here if we are going to move to the next level.
    Let me ask you a little bit about your faith-based 
component. Are you affiliated with particular denominations? I 
take it that you work with different groups at least.
    Mr. Lenyoun. The church here in San Diego that was our 
foundation, that helped us, that supported us with their 
congregation, which happens to be the largest church in San 
Diego, is a non-denominational church. And they were fortunate 
in a suburban area and decided they wanted to help not only all 
parts of the world, but our problems in our own backyard. And 
so that is how it came about and they offered all kinds of 
resources in terms of people within their church that had a 
heart that wanted to give back, that could not go to other 
countries, but had a lot of expertise and resources to help 
here.
    So it actually started with a non-denominational, it is not 
about one church or one type of denomination, it is really an 
open faith-based----
    Mr. Souder. What was the name of the church?
    Mr. Lenyoun. It is called Maranatha Chapel.
    Mr. Souder. And in the area that you are working in 
predominantly, I understood you to say initially there were 
300----
    Mr. Lenyoun. 1,300.
    Mr. Souder [continuing]. 1,300 families are in that. Has 
that community taken over ownership of the project at this 
point?
    Mr. Lenyoun. Has that community taken over ownership?
    Mr. Souder. Yeah. In other words, or are still most of the 
volunteers coming from the Maranatha and other churches?
    Mr. Lenyoun. No, in fact it has totally reverted to a 
community organization and we are no longer involved in that. 
So it is community now.
    Mr. Souder. One of the things that my friend Bob Woodson 
has raised over the years that I have thought about attaching 
to some of our faith-based initiatives questions is a zip code 
test. Not that everybody who receives the grant has to live in 
that zip code, but possibly a third do, because I am convinced 
that a lot of the most effective programs I have seen are 
people who live in those neighborhoods. Is that something that 
you would find a problem, or would it be an advantage?
    Mr. Lenyoun. We certainly would not be, because that is the 
neighborhoods we are in. In the zip codes, we find that, you 
know, you have to be where the action is at and so I think that 
it should be. That money should be targeted, in my opinion, for 
the problem area, the more mortgage deficient impacted areas, 
and so I think it makes a tremendous amount of sense that the 
money is directed right to those zip codes.
    Mr. Souder. One of my--it is not just the money, the 
staffers would have to live there.
    Mr. Lenyoun. Uh-huh.
    Mr. Souder. In other words, up to one-third would have to 
live in the community they are serving, because these things 
are not 9 to 5 jobs. I have heard as I have visited urban 
areas, it is often beltway bandits that know how to get the 
grants but they often do not live in the areas. The most 
effective programs--because the problems do not necessarily 
come before 5, often they come at 9 p.m. or 1 a.m. And I am 
just trying to decide how hard to push that. I do not want to 
hurt programs that could be eligible and effective. At the same 
time, it seems to me a good idea.
    Mr. Grier. A long time ago, I used to tell my kids that 
this is 24 hours, just like you said, a lot of the problems 
occur at midnight. And I have had kids call me at midnight to 
come out and help them and I have gotten out of bed and gone 
out to the community and been in houses where there is a whole 
assembly of kids angry about something. About something the 
police have done or someone had done something to them and they 
wanted to react to it. And so yeah, we realize that it is not a 
9 to 5 problem, it is around the clock. And so what we try to 
do always is try to make sure that our people are always 
available when the problems occur, to be there.
    Dr. Blanchard. I think you are really onto something. I 
would put the funding all responsible and maybe even 
incremented from maybe the beginning 30 percent to eventually 
almost 100 percent. I did a session one time in Paris for 
UNESCO and it just blew my mind. I found out that less than 10 
percent of the UNESCO projects set up around the world ever 
survived 2 years after the funding is dropped. And see, what 
you are trying to do is move people from dependence to 
independence, from where they are dependent on external funding 
and all so that they eventually are doing it themselves because 
the important thing about being a leader is not what happens 
when you are there, it is what happens when you are not there. 
Anybody can get anybody to do anything, you know, when you are 
there. So I think that is one of the things that we really need 
to do.
    One of the things we are also doing----
    Mr. Horn. I would just like to put a footnote on your 
UNESCO thing. When I was a university president, there were a 
lot of feelings on should we help this group or not. The fact 
was 60 percent of their high paid executives stayed in Paris, 
they never went to Africa, they never went to south Asia.
    Dr. Blanchard. That is right.
    Mr. Horn. They did not have the slightest idea but they 
drew a big salary.
    Dr. Blanchard. Yeah. I mean that is one of the things--I am 
kind of in a class by myself, I do not know if you have read 
Bob Beaufort's book ``Half Time,'' but Bob is a good friend of 
mine and he says we are all in the locker room at our age and 
we are trying to decide whether we are going to come out and if 
we are going to come out, how do we move from success to 
significance, you know. And so when I turned 60, I celebrated 
for about 6 weeks, because I was really excited about, you 
know, what I could do the next 35 or 40. I happened to write a 
book with Norman Vincent Peale and just had a wonderful time, 
met him when he was 86 years old, but Norman died quietly in 
his sleep at 95 on Christmas Eve and I said well, that is a 
pretty good goal, I have got a lot of time.
    So what I am helping facilitate, it is going to be 
interesting to see what happens in San Diego, what we are 
calling the San Diego Leadership Initiative, because I have a 
dream and now a lot of people are catching the dream, is that 
in 5 years my dream is that people will be flying in from all 
over this country to say what is going on in San Diego, this is 
a servant leadership town, that people operate differently. And 
what we are trying to go at is rather than take on issues, I 
want to take on the leadership. I want people to lead 
differently. What we are realizing is that when you mention the 
word servant leadership, start thinking you are talking about, 
you know, the inmates running the prison or trying to please 
everybody. That is not what is true. When Jesus washed the feet 
of the disciples, he was not saying to them go out and help 
people do anything they want, because what we are arguing in 
San Diego is two parts of leadership; one is the visionary 
direction part and the second is the implementation.
    And what I recommend that I do not see in like battles on 
drugs or anything from government, is if you ever want to be 
effective at anything, you had better first have a clear vision 
which is what is our purpose. Why are we in business? What are 
our operating values? We have got to rank order them because 
values without rank ordering do not mean anything. Then you 
have to have a clear image which is what will happen if we are 
doing--so we have people in the city now starting to meet to 
talk about in 5 years if people flew in here, what would they 
see, who would they talk to, what would be happening, what 
would we be doing?
    The first year, because it is a 5-year thing, what I am 
trying to do is get government agencies and businesses and 
churches and all to get a real clear vision of what business 
they are in, what they are doing, because servant leadership 
kicks in after you know where you are going. So one of the 
things that Estean has helped us with, we started a center for 
faith-walk leadership, you know, which is to say to people of 
faith, how do you walk your faith in the marketplace, you know, 
as a follower of Jesus. He was pretty clear what kind of 
leadership he wanted, he did not say there was a form B, you 
know, he said to the gentiles lord power over people.
    And one of the problems that happens in government and 
industry and everything is all of the power, energy, money and 
everything flows up the hierarchy in organizations, both ones 
dealing on--causes are set up as if the sheep are there for the 
benefit of the shepherd, rather than what are we there for, the 
customer; what are we there for, the problem. I think the 
customer in the drug war is the people whose minds are blown, 
being blown, and are losing opportunities to make a difference 
in the world. But I think we have got to start to get some 
leadership that focuses on that and does not focus on how can I 
get the government to give me more money so I can pad all the 
hierarchy that I have built around that. I would blow up all 
the damned hierarchies and let us get organizations that are 
really focused on making a difference.
    And these two guys by themselves and with a small group of 
people have made an incredible impact. They do not have a 
hierarchy, they are all team in there and they are not there to 
serve themselves. They are there to serve others and as a 
result, they are feeling good about themselves. And that is the 
kind of stuff that I am really excited about getting in.
    I am pleased that I am hearing some good things coming from 
Bush and other people, that maybe they believe a little bit 
about servant leadership too.
    Mr. Souder. One thing I would appreciate if, because we are 
tight on the room here, but as we work through the language, I 
have carried seven amendments so far on the faith-based stuff 
that passed the House. We have had two or three become law. But 
there are real fine lines we are working to here and my 
question, if you can each give reflection of this and then 
submit us something in writing of how to work through this. 
There is a clear question of religious liberty if there is not 
choice and I as a committed Christian believe that character is 
a key component to changing lives. And yet at the same time, 
there is a risk of having the government fund it from two 
directions. You don't want to get the church sucked into 
government, nor do we in the reverse situation in an 
increasingly multi-cultural country, I do not want the only 
after-school program in my community that my son comes home and 
says oh, I was in this after-school program and they started 
with a bowing down to Allah and a little bit later they spent 
half an hour studying the Koran and they said oh, they did that 
with the voluntary part of the money. The other part was the 
government part. If there is not a choice, where are they going 
to go?
    Now the question is if you get government money in your 
program, are there going to be things you can do and cannot do? 
And I am very concerned that a lot of the organizations do not 
have that legal separation of what they can and cannot do. 
Other groups can do it, you can do work part and religious part 
after or you can incline a heart toward the teachings without 
actually doing the cloture which can occur in the non-period of 
time with the government. But these things have to be sorted 
through and we are going to have the courts much more on us 
than they have ever been before in trying to sort this in 
fairness. And we are having a very difficult time in 
introducing the bills right now and doing the amendments 
because of the inter-tanglement. And my fundamental question is 
can you do your program if you had government funding in it 
without undermining the religious mission that supplements----
    Dr. Blanchard. I think the issues from my standpoint, and I 
hear your comments, is I think the next great movement in 
religion--we had ritual which we brought all from Europe and 
then we had a lot of evangelism. I think the next great 
movement is demonstration. And my feeling is the way we are 
going at it is we are not leading with faith, we are leading 
with behavior and if people see us helping as well as teaching 
other people how to help and then they come and say you guys 
are amazing. I have been watching what you do, where did you 
get that. Then we teach them who we follow. I do not think we 
ought to be leading with trying to convince----
    Mr. Souder. You know, a lot of churches do not understand 
that and yet that is what Wyckliff and New Tribes and 
international missions understand that, help them with the 
health, the translation, but domestically, we have never----
    Dr. Blanchard. No, I think we get that all confused and I 
think we need to lead with, you know, if Allah is your guy or 
Jesus or Buddha, well, you know, how would he behave, and lead 
with the behavior rather than the faith and let the faith 
follow. I get really thrilled--you know, I have a company of 
285 people here and worldwide, and you know, they know what my 
faith is, but we want to model stuff, so they say wow, that is 
really interesting, you know, where do you get that from. Well, 
I happen to have a pretty good model, he was the best in the 
world. But I do not need to lead with that because I have got 
enough trouble with Christians without trying to convert other 
ones, you know. So I don't want any other ones, I have got 
enough problems with what we have got. [Laughter.]
    I had to follow Clinton at a leadership conference. That 
could be a little aside as we leave here, that was interesting.
    Mr. Lenyoun. You know, what we found out in the inner city 
is what we do reveals what we believe, as much as what we say. 
We have people that we call chameleons and we have a lot of 
testiphonies. I am actually a pastor at Maranatha Chapel in 
Rancho Bernardo, but I came from the inner city, my heart is 
committed to the inner city, and we are supporting actually and 
helping the technology in the city of Arial and Summaria, 
Jewish, total Jewish. And that is what we are supposed to do, 
we are called to be a life.
    So the way we feel about it is we want to give the love to 
anyone, we want to help them with their life problems and in 
the process, if we do our jobs, people want to know why we are 
a little bit special, is the way we look at it.
    Mr. Grier. Yeah, I feel that--I had a young man one time, I 
came past and he saw me and he said, Rosey Grier, he said man, 
I like you and I said well come on in my office and he was 
going to a drug treatment place. So I took him in the office 
and the first thing I said to him, I said man, you need to know 
Jesus and he looked at me and he said, you know, what, Rosey, 
you Christians are always saying that, he said you did not ask 
me if I was hungry. I said man, let us go eat.
    I really discovered that you have to meet the needs of the 
person first. You are not concerned about what he believes, 
what he does not believe. You do not know if he is hungry, if 
he needs water, whatever he needs. Try to meet those needs 
first and then who you are will come out. Somewhere along the 
line you will have an opportunity if it comes up. This is not 
about preaching, we are followers of Christ, we are Christians. 
But we just happen to be doing a service to mankind. And anyone 
who wants to come, they can come and we will serve them.
    Mr. Horn. Well, let me thank all three of you. This is the 
most interesting part I have seen of many of our hearings and 
between the three of you, you might well advise congressional 
committees in both the Senate and the House as they work their 
way through this situation. And it is going to take the kind of 
wisdom you have brought to the table because you have already 
experienced it, that is important. I thank you all three for 
being here today. It has been very useful. I remember some of 
your books, Dr. Blanchard and it is a pleasure to see you. And 
we all know Rosey and what he has done, and this young man in 
the middle is the real sort of deputy to get things done.
    Mr. Grier. He sure is.
    Mr. Horn. That is impressive.
    With that, I want to thank the staff that helped put this 
hearing together, for the Government Efficiency Subcommittee 
which I chair, Mr. Russell George, to my right, your left, 
staff director and chief counsel; Dianne Guensberg is the 
professional staff on loan from the U.S. General Accounting 
Office; Bonnie Heald, director of communications; Earl Pierce, 
professional staff; Matthew Ebert, policy advisor; Grant 
Newman, assistant to the committee; Brian Hom, intern.
    And for my colleague's subcommittee, we have Sharon 
Pinkerton, who is the staff director and counsel with the 
Criminal Justice Subcommittee.
    And Tatiana Kazavapis is the Office of the Mayor, city of 
San Diego and Carla Bach, City Council Committee Consultant 
Secretary, for all they have done to help us in terms of the 
very nice hearing room. And of course--how he does it, I will 
never know--but court reporter Bill Warren came out here and 
has been in all of our last five hearings in the State of 
California, both for the full committee and my own committee. 
So thank you very much, Bill, for coming out here. I do not see 
how you do it, but at least it is your air circulating in the 
plane and not everybody else it looks like. So there are 
pluses.
    With that, we are going to adjourn this--recess this 
subcommittee over to next week and the Alameda Corridor to look 
at what a success can be. So with that, we are going to recess 
until Long Beach. Thank you very much.
    Mr. Grier. We would like to thank you all for allowing us 
to come and to share with you and for your work that you are 
doing to make things better. We sure appreciate your efforts 
and what you are doing to make our nation a better place.
    Mr. Horn. Well, thank you. And coming from you, that is an 
honor.
    [Whereupon, the subcommittees were adjourned at 2:03 p.m.]

                                   - 

</pre></body></html>
